<html>
<title> - NATIONAL AERONAUTICS AND SPACE ADMINISTRATION'S (NASA) FISCAL YEAR 2005 BUDGET REQUEST</title>
<body><pre>[Senate Hearing 108-1026]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 108-1026

                     NATIONAL AERONAUTICS AND SPACE
        ADMINISTRATION'S (NASA) FISCAL YEAR 2005 BUDGET REQUEST

=======================================================================

                                 HEARING

                               	BEFORE THE

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 
                               AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 1, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                         U.S. GOVERNMENT PUBLISHING OFFICE
22-397 PDF                    WASHINGTON : 2016                         
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fc9b8c93bc9f898f889499908cd29f9391d2">[email&#160;protected]</a>  



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 1, 2004....................................     1
Statement of Senator Breaux......................................     3
    Prepared statement...........................................     4
Statement of Senator Brownback...................................     1
    Prepared statement...........................................     2
Statement of Senator Hutchison...................................     6
Statement of Senator Lott........................................    33
Statement of Senator Nelson......................................     4
Statement of Senator Stevens.....................................    32
Statement of Senator Wyden.......................................     5

                               Witnesses

O'Keefe, Hon. Sean, Administrator, National Aeronautics and Space 
  Administration.................................................     7
    Prepared statement...........................................     8

                                Appendix

Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    41
Response to written questions submitted to Hon. Sean O'Keefe by:
    Hon. Ernest F. Hollings......................................    54
    Hon. John McCain.............................................    42

 
                     NATIONAL AERONAUTICS AND SPACE
        ADMINISTRATION'S (NASA) FISCAL YEAR 2005 BUDGET REQUEST

                              ----------                              


                        THURSDAY, APRIL 1, 2004

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. I'll call the hearing to order. Thank 
you all for joining us this afternoon. I'm pleased to welcome 
my friend, Sean O'Keefe, to testify for us today on the 
proposed NASA program and budget. It is a momentous year for 
NASA and for our Nation. On January 14, of this year, President 
Bush announced a new space vision, not just for NASA but for 
the Nation. It is a vision of an unlimited future for new 
generations of Americans, a vision of economic opportunity and 
human promise. Most of all, it's a vision of continued American 
leadership and destiny.
    As I travel around my state of Kansas around this country 
and I speak to my colleagues in the Senate, many ask, why space 
and why now? I think the answer is simple. We cannot and will 
not leave our children a world where people of other nations 
are walking, building, and living on the moon, Mars, and 
elsewhere in the solar system and Americans are not there.
    We cannot and will not cede the frontier to others. To do 
so would be the end of a vision begun over 200 years ago with 
the birth of our Nation. It is our destiny to lead the world in 
new frontiers, frontiers of freedom, opportunity, and 
exploration.
    It is a real danger that we will lose the space frontier to 
others. A number of nations are planning or have already begun 
journeys deep into space. China recently moved up its launch 
date for its first lunar resource exploration and exploitation 
mission to 2006. India moved its robotic lunar program forward 
to 2007.
    As an American, and a KU Jayhawk, I welcome competition, 
but make no mistake about it, these other nations are mounting 
ambitious missions to the moon and beyond for the very reasons 
that they promise opportunity and commercial success and they 
are the frontier. Can we afford to ignore this aspect? I think 
not. I plan a specific hearing on this topic April 27 to 
consider what other nations are doing in space exploration. I 
do not want to cede that frontier to others. I will not cede 
that frontier to others.
    We will hear today of NASA's impressive plans to move out 
with scientific, robotic, and human exploration and utilization 
of the solar system. These are impressive plans and ones I 
believe are not only affordable within current budget 
limitations, but that we can't afford not to do.
    Mr. O'Keefe, I welcome you to the Committee. I want to 
congratulate you as well before I hand off to my other 
colleagues on the outstanding Mars rovers that are going and 
the pictures they are sending back, the electricity that they 
are generating about space exploration. It has been marvelous, 
and hats off to you and the team that's put that together and 
that continues to operate those in such a successful fashion.
    I would like to issue a challenge. I'd like to see the 
United States mount robotic missions to the moon as early as 
possible, before others. I'd like to see us back to the moon 
with robotic missions within 2 years. Moreover, I'd like to see 
NASA try a new approach on this goal. Is there a possibility 
that we could challenge the private sector to do some of this 
or all of this for us and us contract with them, not as a 
managed government contractor, but as a service? We purchase 
for their success.
    I'm also concerned over the future of the space shuttle, 
which we'll dedicate some time at this budget hearing about. 
The President's vision will require new, affordable access to 
space. The space shuttle is absorbing a huge amount of NASA's 
resources and will not fly for at least a year. I wonder if we 
shouldn't focus our energies on new, affordable access to 
space. We'll be holding a hearing on this May 5, and would like 
to consider if it might be time for national access to space 
commission to recommend a way ahead for all U.S. space access 
needs.
    The reason I point this out in looking at it, and I've been 
talking with people here, people on the commission, is a space 
shuttle and the amount of funds that it consumes, is there a 
way--and I pose this as a question, not as some set position--
but is there a way that we can move away from the shuttle much 
sooner and focus those resources on the moon, Mars, and beyond 
effort much quicker? Still being able to finish up the 
international space station, contracting for services, having 
others help us more in doing that. We're getting a lot of 
support from other places now. But so much of our budget is 
tied up in the space shuttle. Is there a way to move off of 
that sooner and transfer those resources into the moon, Mars, 
and beyond, and I really want to pose that as a question or 
thought.
    I'll go down to my colleagues as they appear. Senator 
Breaux?
    [The prepared statement of Senator Brownback follows:]

   Prepared Statement of Hon. Sam Brownback, U.S. Senator from Kansas
    I am pleased to welcome my friend Sean O'Keefe to testify before us 
today on the proposed NASA program. This is a momentous year for NASA--
and for our Nation. On January 14 of this year President Bush announced 
a new space vision--not just for NASA but for our Nation. It is a 
vision of an unlimited future for new generations of Americans, a 
vision of economic opportunity and human promise. Most of all it is a 
vision of continued American leadership and destiny.
    As I travel around my state of Kansas and as I speak to my 
colleagues in the Senate they all ask why space and why now. I think 
the answer is simple. We can not and will not leave our children a 
world where people of other nations are walking, building and living on 
the Moon, Mars and elsewhere in the solar system and Americans are not. 
We cannot and will not cede the frontier to others. To do so would be 
the end of a vision begun over two hundred years ago with the birth of 
our Nation. It is our destiny to lead the world on all new frontiers--
frontiers of freedom, opportunity and exploration.
    It is a real danger that we will lose the space frontier to others. 
A number of nations are planning or have already begun journeys deep 
into space. China recently moved up its launch date for its first lunar 
resource exploration and exploitation mission to 2006! India moved its 
robotic lunar program forward to 2007. As an American I welcome 
competition. But make no mistake about it--these other nations are 
mounting ambitious missions to the moon and beyond for the very reasons 
that they promise opportunity and commercial success. Can we afford to 
ignore this aspect? I think not and plan a specific hearing on April 27 
to consider what other nations are doing in space exploration.
    We will hear today of NASA's impressive plans to move out with 
scientific, robotic, and human exploration and utilization of the Solar 
System. These are impressive plans and ones I believe are not only 
affordable within current budget limitations--but that we can't afford 
not to do.
    Now Mr. O'Keefe I'd like to issue you a challenge. I'd like to see 
the United States mount robotic missions to the Moon as early as 
possible--before others. I'd like to see us back to the moon with 
robotic missions within two years. Moreover, I'd like to see NASA try a 
new approach on this goal. Why not challenge the private sector to do 
this for us--not as a traditional contracted effort managed by the 
Government but as a service we purchase upon success?
    I am also concerned over the future of the Space Shuttle. The 
President's vision will require new, affordable access to space. The 
Space Shuttle is absorbing a huge amount of NASA's resources and will 
not fly for at least a year. I wonder if we shouldn't focus our 
energies on new, affordable access to space. I plan a hearing May 5 on 
these issues and would like you to consider if it might be time for a 
national access to space commission to recommend a way ahead for all 
U.S. space access needs.
    I look forward to your testimony and your answer to my challenge.

                STATEMENT OF HON. JOHN BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Thank you very much, Mr. Chairman, and 
Sean, thank you for being with us to give the Administration's 
recommendations on the budget and your request. I think this is 
an important hearing because budgets deal with the future and 
where we go from here and how do we get there from here. I have 
generally supported the administration's plan in dealing with a 
new vision for NASA, that we have to look at new alternatives 
in many areas, but also wanted to make very clear that I don't 
want to be relying on other countries' vehicles to get our men, 
women, and equipment back and forth to the space station.
    I think it's obvious that for the near term and for the 
foreseeable future we're going to be relying on the continued 
use of the shuttle for a while. I mean, we talked about it one 
time, the great move toward an orbital space plane, which I 
thought was a great idea, but that's been shelved. So we're 
back to the drawing board on what's the next generation of 
vehicles to move men and women in outer space.
    So I think that we can't take our minds off the fact that 
the Space Shuttle is a very functional piece of equipment, that 
it can carry tons and tons of equipment, 25 tons or more and a 
large number of crew members back and forth to the space 
station. That's very important and we're going to have to 
depend on it for the foreseeable future. We don't want to fly 
until it's absolutely safe and I know that we made some 
decisions on that which need to be discussed, but I think that 
we're going to be relying on that old and dependable piece of 
equipment for a while, and we want to make sure it's as 
functional and as safe and as modern as it possible can be, and 
I would hope that we're requesting sufficient number of dollars 
to make sure that that continues into the near future.
    Thank you. Thank you, Mr. Chairman.
    [The prepared statement of Senator Hollings follows:]

  Prepared Statement of Hon. John Breaux, U.S. Senator from Louisiana
    The FY 2005 Budget Request is a very complex request, given the 
number of changes it proposes and the shifting of NASA's priority from 
emphasizing Exploration, Science, Advanced Space Transportation & 
Aeronautics to emphasizing Space Exploration as NASA's ``highest 
priority.'' This alone is a complex change, and we are not sure we 
fully understand it.
    After reviewing the budgetary ``puts and takes,'' it seems as if 
NASA is making some very significant changes to its Science programs 
and, although there's nothing on the surface that indicates a shift of 
Aeronautics priorities, we wonder if that change won't occur as 
resources, too, as resources get tighter downstream.
    And NASA is abandoning the Orbital Space Plane that would have 
given us a new means of transferring and rescuing astronaut crew to and 
from the International Space Station by 2008 and 2010, we understood, 
and is now going to ``skip ahead'' to a new program to transport crew 
to the Moon. Where this leaves us is a little unclear, since we also 
intend to keep sending crew and cargo to the Space Station for many 
years to come. How, and using what vehicles, is a little unclear, to 
say the least.
    So one of the greatest concerns I have is how we're going to solve 
the Nation's Space Transportation problems. I'm surprised to say at 
this point that this budget doesn't make that clear, at all. We've had 
a decade of X vehicles and technology programs, spending billions of 
dollars, and now we don't even have a plan to replace the cargo-
carrying capacity of the Space Shuttle nor to develop the Next 
Generation of launch vehicles.
    Is there money for new lift vehicles in this budget? The NASA 
Budget Request is very unclear on that, and that can't be acceptable to 
the Congress or the space industry. Certainly industry can't be 
expected to pay the bill for these second generation technologies--we 
went down that road before and that didn't work.
    Before this Congress is going to agree to end the Space Shuttle 
program, we will have to have better answers to these questions.

    Senator Brownback. Thank you very much and I have a 
statement from Senator Hollings that we'll submit for the 
record.
    Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman. Well, I support 
the President's request and if the word hasn't gotten to you 
about a statement that I made a couple of weeks ago, I want you 
to hear it directly from me. We almost lost your budget and the 
reason we almost did was the Budget Committee had marked up and 
cut NASA $631 million from the President's request--and because 
of that account in the budget act being a relatively small 
account, had that passed and if it were to have survived the 
conference committee on the budget, then the instructions back 
to the Appropriations Committee would have put NASA in an 
appropriations straitjacket, and we would not have been able to 
get anywhere close to the President's request.
    Now, all throughout the Budget Committee deliberations, I 
could not get Senator Sessions, who also sits on the Budget 
Committee, the two of us, we could not get the White House team 
to come up and stand by their request. As the budget proceeded 
out of the Committee and up to the floor, only because Senator 
Shelby at one o'clock in the morning before we passed the 
budget at 1:15 a.m. told Chairman Nickles that he was going to 
vote against the budget resolution unless they restored NASA to 
the President's level, only until that NASA was going to be put 
into a situation of a $631 million cut. So I give full credit 
to Senator Shelby, Senator Sessions and I, were all three of us 
working it that night, but with a lack of effort on the part of 
the White House to let the members of the Senate know that this 
was a critical mark for them.
    And so you know what the consequence of that would be, I 
know what the consequence of that would be. It would shelve a 
lot of the visionary plans that you have and of which we just 
can't take those risks. Now, in the meantime the House of 
Representatives have passed their budget, and they have whacked 
NASA's budget so we've got another opportunity to pull out all 
the stops when this goes to the conference and let it be clear 
that the President is firmly behind his request because of all 
these things that are going to be affected in the out years. 
And I would hope that you would help us convey that message 
back to the White House as we get ready for this.
    Mr. Chairman, I'll just make the other parts of my comments 
in the form of questions.
    Senator Brownback. Thank you, and thanks for holding that 
back if you can because I want to get to Sean as quick as we 
can to get as much information and questions as soon as 
possible.
    Senator Wyden?

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I too want to 
welcome the Administrator. He's always been very forthcoming 
and responsive. I think Senator Nelson's comments sort of 
reflect how I want to approach this. He said that he supports 
the President's request, and I would like to support the 
President's request but I think that the Committee and the 
Senate and to a great extent, the country, are still in the 
dark until we can get some answers to this question you and I 
have talked about. That is the comparative merits and cost 
effectiveness or risk reward of manned versus unmanned space 
flights, and we have just got to get that report wrapped up 
that we've been talking about. I was under the impression we 
were going to have it done by February 18.
    Your folks, to their credit, came to talk to us about it, 
but I just think, Mr. Administrator, we've got to figure out a 
way to get a sharp pencil to this and really lay out for the 
country what the alternatives are, because without it, when you 
look for examples and what's being discussed with respect to 
the prospect of dedicating $170 billion to returning humans to 
the moon between 2015 and 2020. That is a boatload of money and 
people are going to say, how do you justify the costs?
    And so, particularly since we've got many already voicing 
concerns with respect to whether the agency's met the 
recommendations of the CAIB report, so we've got to figure out 
a way to get our arms around this issue. I'm going to be asking 
some questions about it. Most of my questions deal with the 
fact that until we get that report, we're sort of here in the 
Committee and I think in the Congress generally all trying to 
excavate this information piecemeal.
    And I've really appreciated your willingness to take this 
on. I just think we've got to figure out a way to move this to 
completion and really get something that represents a document 
based on the best and most rigorous kinds of judgments with 
respect to cost benefit. What I think folks are doing now is 
they've got a lot of pictures and the pictures are good, but I 
think we've got to get into those kind of issues that you get 
to when you're making some hard calls with respect to cost 
benefit, and I'm anxious to work with you on that and get this 
done.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Wyden.
    Senator Stevens?
    Senator Stevens. I have no opening statement.
    Senator Brownback. Thank you.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I just would 
say that I think that all of us have the goal of making sure 
that really the vision of the President is realized. I think he 
was very bold. We need to follow through on that.
    I am concerned about reports of different people talking 
about phasing out the shuttle program sooner. It just seems to 
me if we are going to keep our international commitments to the 
space station, which the President has said we're going to do 
and which you have reiterated on many occasions and which I 
support, that we must also have the commitment to the Space 
Shuttle. We're not going to be able to get the payload up there 
and complete the station without our shuttles as well as the 
use of the Russian shuttles being maximized.
    The shuttle can deliver as much as 25 tons of payload to 
orbit and bring back as much as 20 tons. It is the only vehicle 
that we have that is capable of that heavy lift. So I hope that 
we don't start saying, well, technical repairs are not going to 
be made, and then we sort of buy something that is very 
premature, very much in planning but not nearly into 
implementation phase and then get into a situation where we 
can't finish the station.
    So I am very concerned about any kind of effort that would 
shortchange the shuttle, and I think we need to do it right, we 
need to finish the station, keep our international commitments, 
and then do the research that we have spent all this money 
getting prepared to do.
    So thank you for being here. I will have to leave early, 
but I am very interested and will listen to your testimony and 
then be able to work with my colleagues to assure that we do 
this right.
    Senator Brownback. Thank you, Senator Hutchison. Now you 
realize we're all of one mind up here, Director O'Keefe, and we 
look forward to your presentation of the NASA budget.

    STATEMENT OF HON. SEAN O'KEEFE, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. O'Keefe. Thank you, Mr. Chairman. I appreciate the 
opportunity as well. Last year, on August 26, when the Columbia 
Accident Investigation Board called for the examination of a 
broader strategy and vision to be articulated by the President, 
we began the work some time before that in developing an inter-
agency process that advised the President on a range of options 
that could be considered in pursuit of such a strategy, such a 
vision statement.
    On January 14, he delivered that. It was the commentary 
offered by every oversight committee, by every conference that 
had been conducted over the last year that this was necessary 
and time for such an effort to be made, and that's precisely 
what he delivered on. And in that regard, the opportunity now, 
as several members have observed here, is the President's 
budget which supports that objective, very specifically starts 
us down the road to achieving that strategy and set of goals, 
has been endorsed in the Senate and we thank you for that 
support and initiative in that particular area of moving the 
Senate resolution forward in a way that does fully support the 
President's initiative.
    As the conference continues on, yes, we're working 
diligently to assure that the Senate position is sustained as 
part of the resolution, to assure that the distinguished 
Chairman of the Appropriations Committee has all of the 
symbolic focus necessary from the overall budget resolution 
targets and the 302 allocations to make that a possibility that 
can be pursued in the appropriations process.
    That's what we're dedicated to, the Administration in its 
entirety. The President's budget is specifically directed in 
that way, and the Senate support of that has been most 
beneficial.
    The elements of the strategy, and in support of Senator 
Hutchison's comments of what our focus and objectives are all 
about. I think she summarized quite impressively is the early 
parts of this require a return of the shuttle to flight, a 
construction of the international space station, and then 
movement toward the broader objectives of what is contained in 
the President's statement, which is exploration. It is the act 
of exploration that is the primary focus of what our strategy 
is all about.
    And rather than work through a specific list of those 
initiatives, if you'd permit me, Mr. Chairman, there's a short 
5-minute piece that I can present here that highlights each of 
the elements of what is contained in the President's vision, 
and I'll conclude my comments with what this entails, if you 
would sir.
    [A video was shown.]
    Mr. O'Keefe. Mr. Chairman, that is a brief summary of where 
we're heading that is derived from the President's directive in 
terms of what we see as the specific strategy and objectives we 
are to follow, and it has already begun. The implementation of 
that has already started with, as you referred to it, the 
remarkable successes we're seeing daily of the Mars expedition, 
Rover, Spirit, and Opportunity, that are operating on that 
planet 125 million miles away, testimonial to its interest and 
support from across, I think, the broader expanse.
    In the course of the last 75 days, our website has 
encountered 9 billion hits to the website. That's three times 
as many as all of last year and all of last year was five times 
as many as we'd ever gotten before. So the interest level, the 
enthusiasm, and certainly curiosity of what this particular 
mission certainly is evoking is clearly an expression of 
enthusiasm and support for where we're going and thirst for 
understanding.
    Beyond that, once encountered upon the website there is an 
array of different visits that are done across everything we're 
engaged in at NASA to include this particular strategy, of 
which the support is building. So with that, Mr. Chairman, I 
appreciate the opportunity to testify and look forward to your 
questions as well.
    [The prepared statement of Mr. O'Keefe follows:]

        Prepared Statement of Hon. Sean O'Keefe, Administrator, 
             National Aeronautics and Space Administration
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to discuss NASA's FY 2005 budget request. 
On January 14th, the President visited NASA Headquarters and announced 
his Vision for U.S. Space Exploration. In his address, the President 
presented a vision for our Nation that is bold and forward-thinking, 
yet practical and responsible--one that explores answers to 
longstanding questions of importance to science and society and 
develops revolutionary technologies and capabilities for the future, 
while maintaining conscientious stewardship of taxpayer dollars.
    The vision forms the basis of the new U.S. space exploration 
policy, ``A Renewed Spirit of Discovery,'' a copy of which is appended 
to this testimony as Enclosure 1. This policy is the product of months 
of extensive and careful deliberation. The importance of these 
deliberations increased with the findings of the Columbia Accident 
Investigation Board, which emphasized the importance of setting clear, 
long-term goals for the Nation's human space flight program. Inputs 
from Members of Congress informed the Administration's deliberations. 
Many others contributed ideas for the future of the space program. 
These deliberations were also the basis for formulating the President's 
FY 2005 budget request for NASA. A commission appointed by the 
President will advise NASA on specific issues for implementation of the 
policy's goals within four months.
    Today, I will summarize the President's FY 2005 budget request for 
NASA, discuss the goals set forth in the new U.S. space exploration 
policy, outline the major implementation elements and their associated 
budget details, explain the implications of this directive for NASA's 
organization, and describe what the Nation's future in exploration and 
discovery will look like in the coming years.
FY 2005 Budget Summary
    The President's FY 2005 Budget request for NASA is $16.244 billion, 
a 5.6 percent increase over FY 2004, as reflected in Enclosure 2. The 
NASA budget request is designed with four key principles in mind:

    Compelling--The budget fully supports the Vision for U.S. Space 
Exploration, and provides for ongoing NASA mission priorities such as 
Aeronautics and Earth Science.
    Affordable--The budget is fiscally responsible and consistent with 
the Administration's goal of cutting the Federal deficit in half within 
the next 5 years. NASA's FY 2005 budget will increase by $1 billion 
over 5 years, when compared with the President's FY 2004 plan; that is 
an increase of approximately 5 percent per year over each of the next 3 
years and approximately 1 percent for each of the following 2 years.
    Achievable--The budget strategy supporting the vision for 
sustainable exploration will not require large balloon payments by 
future Congresses and Administrations. Unlike previous major civil 
space initiatives, this approach is intentionally flexible, with 
investments in sustainable exploration approaches to maintain 
affordability. After FY 2009, the budget projects that the exploration 
vision can be implemented within a NASA budget that keeps pace with 
inflation.
    Focused--The budget begins the alignment of NASA's program 
structure with the exploration vision. We now have the needed compass 
with which to evaluate our programs and make the required tough 
decisions.
Vision Goals
    The fundamental goal of this new policy is to advance U.S. 
scientific, security, and economic interests through a robust space 
exploration program. In support of this goal, NASA will:

  <bullet> Implement a sustained and affordable human and robotic 
        program to explore the Solar System and beyond;

  <bullet> Extend human presence across the Solar System, starting with 
        a human return to the Moon by the year 2020, in preparation for 
        the human exploration of Mars and other destinations;

  <bullet> Develop the innovative technologies, knowledge, and 
        infrastructures both to explore and to support decisions about 
        destinations for future human exploration; and

  <bullet> Promote international and commercial participation in 
        exploration to further U.S. scientific, security, and economic 
        interests.
Implementation Elements and Budget Highlights
    To achieve these goals, NASA will plan and implement an integrated, 
long-term robotic and human exploration program, structured with 
measurable milestones and executed on the basis of available resources, 
accumulated experience, and technology readiness. Our initial plan is 
summarized in Enclosure 3.
    NASA has developed a budget projection through 2020 to define the 
resources that will be available to achieve the vision for space 
exploration, as shown in Enclosure 4 [sand chart]. The first five years 
are based on the details contained in the President's FY 2005 Budget 
request, and Fiscal Years 2010-2020 are based on roughly inflationary 
growth. NASA has taken the unusual step of projecting the budget beyond 
five years to demonstrate the exploration vision's sustained and 
affordable approach, which redirects resources within NASA and does not 
require balloon payments beyond the normal five-year budget horizon.
    The President's five-year FY 2005-09 Budget request establishes 
necessary groundwork for the execution of the exploration vision. 
Proposed near-term investments are focused on technology risk reduction 
and flight experiments as well as robotic missions throughout solar 
system.
    Enclosure 4 shows a rough estimate for the cost of the exploration 
initiative through the initial human lunar landing. This represents a 
bounding estimate based on experience and actual costs from relevant 
elements of the Apollo program. The estimate does not reflect 
architecture studies, design analysis, new technologies, and innovative 
approaches yet to be undertaken. It also does not reflect that the 
vision, unlike Apollo, views the lunar landing not as an end in itself, 
but as one step in a sustained human and robotic program to explore the 
solar system and beyond.
    The policy envisions the following major implementation elements:

    Space Shuttle--NASA will safely return the Space Shuttle to flight 
as soon as practical, based on the recommendations of the Columbia 
Accident Investigation Board. The budget includes $4.3 billion for the 
Space Shuttle, a 9 percent increase above FY 2004. Included in this 
total is an estimated $238 million for Return to Flight (RTF) 
activities in FY 2005. The RTF activities are under evaluation to 
confirm the estimated cost and associated out year phasing. The focus 
of the Space Shuttle will be finishing assembly of the International 
Space Station (ISS). With its job done, the Space Shuttle will be 
phased out when assembly of the ISS is complete, planned for the end of 
the decade. NASA will determine over the next year how best to address 
the issues associated with the safe retirement of the Space Shuttle 
fleet.
    International Space Station--NASA plans to complete assembly of the 
International Space Station by the end of the decade, including those 
U.S. components that will ensure our capability to conduct research in 
support of the new U.S. space exploration goals, as well as those 
elements planned and provided by foreign partners. The budget provides 
$1.9 billion for ISS assembly and operations, a 24 percent increase 
above FY 2004. This increase forward funds $100 million in reserves to 
partially restore planned near-term reserve levels following the $200 
million Congressional cut to Space Station in FY 2004 and provides $140 
million in new funding for transportation services to the Space 
Station. We will separate, to the maximum extent practical, crew and 
cargo transportation for both ISS and exploration missions. NASA will 
acquire ISS crew transport as required and will acquire cargo 
transportation as soon as practical and affordable. NASA envisions that 
commercial and/or foreign capabilities will provide these services.
    The Administration is also prepared to address issues associated 
with obtaining foreign transportation services to the Space Station, 
including provisions of the Iran Nonproliferation Act, but, until the 
ISS Partnership adopts a specific implementation strategy, it is 
premature to identify specific issues.
    U.S. research activities aboard the ISS will be focused to support 
the new exploration goals, with an emphasis on understanding how the 
space environment affects astronaut health and capabilities, and on 
developing appropriate countermeasures to mitigate health concerns. ISS 
will also be vital to developing and demonstrating improved life 
support systems and medical care. Consistent with this focus, the 
budget provides $343 million, a 61 percent increase above the FY 2004 
request, for bioastronautics research to understand and mitigate risks 
to humans on exploration missions. Over the next year, the Biological 
and Physical Research Enterprise will conduct a thorough review of all 
research activities to ensure that they are fully aligned with and 
supportive of the new exploration vision.
    New Space Transportation Capabilities--The budget provides $428 
million to begin a new Crew Exploration Vehicle, named Project 
Constellation, which will provide crew transport for exploration 
missions beyond low-Earth orbit. The current budget planning is based 
on formulation concept studies to be conducted in FY 2004, preliminary 
design activities conducted in FY 2005-2006, a System Design Review in 
FY 2005, and a Preliminary Design Review in FY 2006. NASA plans to 
develop Project Constellation in a step-by-step approach, with an 
initial unpiloted test flight as early as 2008, followed by tests of 
progressively more capable designs that provide an operational human-
rated capability no later than 2014. Project Constellation may also 
provide transportation to the Space Station, but its design will be 
driven by exploration requirements.
    NASA does not plan to pursue new Earth-to-orbit transportation 
capabilities, except where necessary to support unique exploration 
needs, such as those that could be met by a heavy lift vehicle. The 
budget discontinues the Space Launch Initiative, although knowledge 
gained on the Orbital Space Plane will be transferred to Project 
Constellation.
    Lunar Exploration--NASA will undertake lunar exploration and 
demonstration activities to enable the sustained human and robotic 
exploration of Mars and other destinations in the Solar System. 
Beginning no later than 2008, NASA plans to launch the first in a 
series of robotic missions to the Moon to prepare for and support human 
exploration activities. The budget provides $70 million for these 
robotic lunar test beds, increasing to $420 million by FY 2009. The 
policy envisions the first human expedition to the lunar surface as 
early as 2015, but no later than 2020. These robotic and human missions 
will further science and demonstrate new approaches, technologies, and 
systems--including the use of space resources--to support sustained 
human exploration to Mars and other destinations.
    Exploration of Mars--The stunning images we have received since 
January 2004 from Mars, and the recent findings by the Opportunity 
Rover of evidence of large volumes of standing water on the Meridiani 
Planum, lay the foundation of the Vision for U.S. Space Exploration. 
NASA will enhance the ongoing search for water and evidence of life on 
Mars by pursuing technologies in this decade to be incorporated into 
advanced science missions to Mars in the next decade. Also starting in 
the next decade, NASA will launch a dedicated series of robotic 
missions to Mars that will demonstrate greatly enhanced capabilities 
and enable the future human exploration of the Red Planet. The budget 
provides $691 million for Mars Exploration, a 16 percent increase over 
FY 2004, and will double Mars Exploration funding by FY 2009. NASA will 
conduct human expeditions to Mars and other destinations beyond Earth 
orbit on the basis of available resources, accumulated experience, and 
technology readiness.
    Other Solar System Exploration--Over the next two decades, NASA 
will conduct an increasingly capable campaign of robotic exploration 
across the Solar System. The budget provides $1.2 billion for Solar 
System Exploration missions to Jupiter's icy moons, to Saturn and its 
moon Titan, to asteroids and comets, and to other Solar System bodies. 
These missions will search for potentially habitable environments, 
evidence of life, and resources, and help us to understand the history 
of the Solar System.
    Extrasolar Planets--NASA will launch advanced space telescopes that 
will search for Earth-like planets and habitable environments around 
other stars. The budget includes $1.1 billion for the Astronomical 
Search for Origins, a 19 percent increase over FY 2004, to support the 
recently launched Spitzer Space Telescope, James Webb Space Telescope 
development, as well as several future observatories. This funding also 
supports investments to extend the lifetime of the Hubble Space 
Telescope to the maximum extent possible without a Shuttle servicing 
mission and to safely deorbit the observatory when its science 
operations cease.
    Enabling Capabilities--NASA will pursue a number of key 
capabilities to enable sustainable human and robotic exploration across 
the Solar System. Among the most important of these capabilities is 
advanced power and propulsion, and the budget provides $438 million for 
Project Prometheus to develop these technologies for future robotic and 
human exploration missions. The budget also includes $636 million in 
other Human and Robotic Technology funding to pursue sustainable 
approaches to Solar System exploration, such as reusable and modular 
systems, pre-positioned propellants, space resource utilization, 
automated systems and robotic networks, and in-space assembly. These 
technologies and techniques will be demonstrated on the ground, in 
orbit, and on the Moon beginning in this decade and extending into the 
next to help inform future exploration decisions. The budget projects 
that funding for these Human and Robotic Technology investments will 
grow to $1 billion by FY 2009.
    The budget also includes innovative opportunities for U.S. 
industry, academia, and members of the public to help meet the 
technical challenges inherent in the new space exploration vision. The 
budget includes $20 million for the new Centennial Challenges program, 
which will establish competitions to stimulate innovation in space and 
aeronautical technologies that can advance the exploration vision and 
other NASA missions. The budget also provides $10 million for NASA to 
purchase launch services for its payloads from emerging launch vehicle 
providers. And as previously mentioned, the budget includes $140 
million for Space Station transportation services.
    Ongoing Priorities--The budget supports the Vision for U.S. Space 
Exploration, while maintaining NASA commitments in other important 
roles and missions.
    NASA continues its commitment to understanding our changing global 
climate. The budget makes NASA the largest contributor to the 
interagency Climate Change Science Program with $100 million for the 
Climate Change Research Initiative. The budget includes $560 million 
for Earth System Science research, a 7 percent increase above FY 2004, 
to support research on data from 80 sensors on 18 satellites currently 
in operation. Work also continues on Earth observation missions in 
development or formulation, including $141 million (a 36 percent 
increase from FY 2004) for the National Polar Orbiting Environmental 
Satellite System Preparatory Project, and $240 million (a 37 percent 
increase from FY 2004) for missions in formulation, such as the 
Orbiting Carbon Observatory, Aquarius, and Hydros, as well as the 
Landsat Data Continuity Mission.
    NASA maintains planned Aeronautics Technology investments to 
improve our Nation's air system. The budget includes: $188 million, a 4 
percent increase above FY 2004, for technology to reduce aircraft 
accidents and improve the security of our Nation's aviation system 
against terrorist threats; $72 million, an 11 percent increase above FY 
2004, for technology to reduce aircraft noise and improve the quality 
of life for residents living near airports; $209 million for technology 
to reduce aircraft emissions and improve environmental quality; and 
$154 million for technologies to increase air system capacity and 
reduce delays at the Nation's airports.
    NASA will continue to make fundamental advances in our knowledge of 
the Sun and the Universe. The budget provides $746 million for Sun-
Earth Connection missions, including the Solar Dynamics Observatory and 
the Solar-Terrestrial Relations Observatory. The budget also provides 
$378 million for Structure and Evolution of the Universe missions, 
including the Chandra X-ray Observatory and three major missions 
currently under development.
    NASA maintains its role in science, engineering and math education. 
The budget includes $10 million for the newly authorized Science and 
Technology Scholarship program, which will help attract the Nation's 
best college students to NASA science and engineering careers. The 
budget also provides $14 million for the NASA Explorer Schools program, 
which seeks to attract students to mathematics and science during the 
critical middle school years. The Explorer Schools program is entering 
its third phase and will be selecting 50 new schools for a total of 150 
participating schools.
    NASA's education programs are, and will continue to be imbedded and 
directly linked to our vision for space exploration. Students now have 
unprecedented opportunities to engage in NASA flight programs, the 
observation of distant galaxies, and the robotic exploration of distant 
planets. Mission experiences link students and classrooms to NASA's 
diverse personnel, research facilities, telescopes, and planetary 
probes. Our successful efforts to ``inspire the next generation of 
explorers'' sustain a continuous pipeline of scientists, technologists, 
engineers, mathematicians, and teachers to carry forward our Nation's 
exploration goals.
    Management of Human Capital, Facilities and Institution--NASA has 
the distinction of being the only Federal agency to earn top grades for 
the Human Capital and Budget and Performance Integration initiatives 
under the President's Management Agenda. Congress recently passed the 
NASA Flexibility Act of 2004. NASA is grateful for the hard work of 
this Committee in shaping this legislation to provide the necessary 
flexibilities to better attract and manage a diverse workforce. These 
flexibilities will be critical to implementing the exploration vision. 
The budget includes $25 million in FY 2005 to begin to address critical 
workforce skill and aging issues. NASA ratings have also improved in 
the Competitive Sourcing and E-Government initiatives, resulting in 
more total improvements than in any other agency. Although we received 
a disclaimed opinion on our recent audit statement, we are determined 
to pursue the right path in Financial Management bringing on a new 
financial system that will standardize accounting across the Agency and 
provide the tools necessary for improved program management. NASA 
remains committed to management excellence and believes it is essential 
to implementing the new exploration vision.
    The budget includes funding for critical institutional 
capabilities, including $77 million for the NASA Engineering and Safety 
Center and $27 million for our software Independent Verification and 
Validation facility. The budget also provides $307 million, a $41 
million increase versus FY 2004, for facilities maintenance.
Organizing for Exploration
    To successfully execute the exploration vision, NASA will re-focus 
its organization, create new offices, align ongoing programs, 
experiment with new ways of doing business, and tap the great 
innovative and creative talents of our Nation.
    The President has issued an Executive Order establishing a 
commission of private and public sector experts to advise us on these 
issues. Pete Aldridge former Undersecretary of Defense and Secretary of 
the Air Force, is Chair of the Commission. The President has named 
eight other commissioners to join Mr. Aldridge. The commission will 
issue its report within 120 days of its first meeting, which was held 
on February 11, 2004.
    Immediately following the President's speech, we established an 
Exploration Systems Enterprise, which will have the responsibility for 
developing the Crew Exploration Vehicle and other exploration systems 
and technologies. Retired U.S. Navy Rear Admiral Craig Steidle, former 
manager of the Defense Department's Joint Strike Fighter Program, is 
heading this new organization. Relevant programs of the Aerospace 
Technology, Space Science, and Space Flight enterprises are being 
transferred to the Exploration Systems Enterprise. The Aerospace 
Technology Enterprise has been renamed the Aeronautics Enterprise to 
reflect its new focus.
    As human explorers prepare to join their robotic counterparts, 
coordination and integration among NASA's diverse efforts will 
increase. The Exploration Systems Enterprise will work closely with the 
Space Science Enterprise to use the Moon to demonstrate new approaches, 
technologies, and systems to support sustained human exploration. 
NASA's Space Science Enterprise will have the responsibility for 
implementing early robotic testbeds on the Moon and Mars, and will also 
demonstrate other key exploration technologies--such as advanced power 
and communications--in missions to Mars and Jupiter's moons. NASA's 
Space Science Enterprise will eventually integrate human capabilities 
into exploration planning for Mars and other destinations.
    Many other elements of the NASA organization will be focused to 
support this new direction. NASA's Biological and Physical Research 
Enterprise will put much greater emphasis on bioastronautics research 
to enable the human exploration of other worlds. NASA's Office of the 
Space Architect will be responsible for integrating the exploration 
activities of NASA's different Enterprises and for maintaining 
exploration roadmaps and coordinating high-level requirements.
    As we move outward into the Solar System, NASA will look for 
innovative ideas from the private sector and academia to support 
activities in Earth orbit and future exploration activities beyond. 
Many of the technical challenges that NASA will face in the coming 
years will require innovative solutions. In addition to tapping 
creative thinking within the NASA organization, we will leverage the 
ideas and expertise resident in the Nation's universities and industry.
    In his speech, the President directed NASA to invite other nations 
to share in the challenges and opportunities of this new era of 
exploration and discovery, and he directed us to fulfill our standing 
international commitments on ISS. We are discussing the impact of our 
vision implementation plans on the ISS with our partners, and as I have 
already indicated, we will complete the assembly of the ISS. The 
President called our future course of exploration ``a journey, not a 
race,'' and other nations have reacted positively to the Vision; 
several have already contacted us about joining in this journey. 
Building on NASA's long history and extensive and close ties with the 
space and research agencies of other nations, we will actively seek 
international partners in executing future exploration activities 
``that support U.S. goals'' or ``wherever appropriate''.
    NASA will also invigorate its workforce, focus its facilities, and 
revitalize its field centers. As exploration activities get underway, 
NASA anticipates planning, reviews, and changes to align and improve 
its infrastructure. In order to achieve the exploration vision, we will 
be making decisions on how to best implement new programs. While some 
of these necessary actions will be difficult, they are essential to 
achieving the goals of the overall effort before us. I urge you to 
consider the full context of what we will be proposing rather than any 
isolated, specific action. Such a perspective will allow us to move 
forward in implementing the vision.
FY 2003 Accomplishments
    Much of the NASA's future ability to achieve the new space 
exploration vision is predicated on NASA's many previous 
accomplishments. The most visible NASA successes over the past year are 
the Spirit and Opportunity rovers currently on Mars. Already, the 
landscapes imaged by these twin rovers and their initial science 
returns are hinting at fundamental advances in our understanding of 
early environmental conditions on Mars; the announcement regarding the 
discovery of evidence that there was once liquid water on Mars' surface 
is a dramatic example of such an advance.
    However, Spirit and Opportunity are not the only recent NASA 
mission successes. NASA and its partners successfully launched seven 
new Space Science missions (including the two Mars rovers), three new 
Earth Science missions, one new NASA communications relay satellite, 
and completed two Space Station deployment missions. Operating missions 
have achieved a number of notable successes, including the Stardust 
mission's successful flight through the tail of Comet Wild-2, initial 
images from the recently launched Spitzer Space Telescope, a ten-to 
100-fold improvement in Earth's gravity map from the GRACE satellite, 
the most accurate maps of Earth temperatures to date from the Aqua 
satellite, and new insights into space weather and solar activity from 
Sun-Earth Connection missions.
    NASA exceeded or met 83 percent of its annual performance goals for 
FY 2003. Among these accomplishments were demonstrations of new systems 
to improve air traffic control and to combat aircraft icing, 
improvements in battery, telescope sensor, and life support 
technologies; fundamental advances in understanding states of matter 
(from Space Station research); and the implementation of new remote 
sensing tools for tracking diseases and wild fires.
The Nation's Future in Exploration and Discovery
    As the President stated in his speech, we are embarking on a 
journey, not a race. We begin this journey of exploration and discovery 
knowing that many years of hard work and sustained effort will be 
required, yet we can look forward to achieving concrete results in the 
near term. The vision makes the needed decisions to secure long-term 
U.S. space leadership. It provides an exciting set of major milestones 
with human and robotic missions. It pursues compelling science and 
cutting-edge technologies. It invites new ideas and innovations for 
accomplishing these bold, new endeavors. And it will provide the 
opportunity for new generations of Americans to explore, innovate, 
discover, and enrich our Nation in ways unimaginable today. This 
challenging Vision provides unique opportunities for engaging students 
across the country, ``as only NASA can,'' to enter careers in science, 
engineering, technology, and math.
    I sincerely appreciate the forum that the Subcommittee has provided 
today, and I look forward to responding to your questions.
                              Enclosures  1 - 4
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    Senator Brownback. Thank you very much, Mr. O'Keefe. Let's 
run the clock at 5 minutes here and we'll let people go through 
quickly on items. Mr. O'Keefe, I want to pose a question that I 
think may take some time to think through and so I'm not 
expecting a hip shot today on this from you.
    One, a number of people supporting Hubble servicing, I know 
that was an issue of some concern earlier on. I wonder if there 
is a way that we can do this without the shuttle. I know NASA's 
being looking at, OK, we need to do it with the shuttle or if 
we've got to have other missions with the shuttle, or is there 
a way to do it without the shuttle. And I'd like a thought on 
this.
    The bigger point I would make to you is that the mission of 
what the President has outlined, it's great, I support it 
fully. It takes too long. We've got China, India going back to 
the moon. China's moving theirs up to 2006 with the initial 
wave going forward, India 2007. Maybe those dates slip on their 
part and they don't hit it, but if we're talking about 2014 and 
no later than 2020 back to the moon, it looks like to me we're 
going to be about fourth or fifth in line while somebody else 
is there.
    Now, then that comes back to an issue of money and that's 
what the hearing's about is the budget. You've got about $4 
billion to $5 billion annually going into the Space Shuttle 
program. You've heard a range of thoughts up here about space 
shuttle. If we could get more of those funds moved into 
exploration and missions earlier and do the international space 
station off of contracting with either private sector or with 
other countries, with what we're doing with Russia on a quicker 
basis, could we transition the money from shuttle to 
exploration and missions and step up the dates by which we 
could get back to the moon, Mars, and beyond so that we're not 
conceding that frontier to others?
    You've created a great electricity on the Mars mission, the 
website hits that you've talked about, front page of the paper. 
It's kind of like the day of exploration is back and we've been 
stuck in the mud here for some period of time and now we can do 
this.
    To follow that on with, it's going to be 2020 before we're 
back on the moon with a human and on, 16 years, that seems like 
quite a long frame of time and I got to think most of it's tied 
budgetarily. So I wonder if you could look at or think about, 
and maybe this is one that takes some time doing that, on the 
shuttle. I mentioned previously about a NASA BRAC process so 
that we could take some of the resources like we're doing in 
the military and try to consolidate them in more areas so that 
you--can we take some of the funding going to various areas 
within NASA and let's concentrate that into exploration. I've 
mentioned at hearings before of getting sponsorships from the 
private sector so that we can get more private dollars 
dedicated to space exploration missions.
    I ask you to think about those. Those you're willing to 
respond to today I'd be delighted to hear from you or if you 
want to kick them around some internally, I'd be happy to visit 
with you about those later. All this is in an effort to try to 
get more money into explorations and missions faster without 
busting through an overall budget cap that we have in a tight 
budget.
    So I would put those forward to you and appreciate any 
response you would care to give today or we can continue to 
conversation later.
    Mr. O'Keefe. Yes, sir. Thank you, Mr. Chairman. I'll take 
you up on the opportunity on both counts. I'd definitely like 
to pursue it further in discussion because we really have lent 
a lot of consideration to the latter question you posed.
    But to the first point, to the issue of the Hubble 
servicing mission, very quickly let me include in the record at 
this point if you'd permit a more extensive discussion of all 
the factors that go into the question of the servicing mission 
relative to compliance with the Columbia Accident Investigation 
Board recommendations.
    We're about two objectives. The first one is to try to 
extend the service life of Hubble by whatever means possible. 
There are a lot of different ways to do that, and we're 
examining a series of robotic, autonomous methods that would 
extend the battery power on the Hubble for a longer period of 
time, and we'll see what--various proposals that have been made 
and we'll see what it's going to take to work that out.
    In addition to that, we also want to be sure we comply with 
every single recommendation of the Accident Investigation 
Board's findings and move forward to return the shuttle to 
flight at the lowest risk that we can possibly attain. I think 
that's the dual objective and I'll submit that for the record 
if you would, sir. But I think we'll be seeing some real 
movement on that front in a very, very short period of time in 
terms of looking at other alternatives, along with the National 
Academy of Sciences' examination, the GAO's review that's been 
commissioned by the Appropriations Committee to consider that 
as well. All that will be converging here I think in the next 
couple of months.
    To the second part of your question, which is a really 
intriguing issue, and it's one that we frankly wrestled with 
endlessly within the administration during the course of the 
inter-agency process to come up with the options for the 
President's consideration. At the beginning and at the end and 
at any step in between, his consistent reminder to us all was, 
it is about the act of exploration, folks. That's what this 
focus really needs to be. It is the curiosity and the 
understanding on the part of human desire to want to know and 
understand ought to be the central guiding feature, and then 
there are a whole range of different options you can pursue in 
the process of getting there.
    How quickly you achieve that is a limit, as you've 
correctly pointed out, of not only resource but also of the 
technology and how it can be employed in ways that develop that 
systems integration approach necessary to yield that result. 
And what we've developed, I think, is an approach that attempts 
to accomplish each of those imperatives in turn.
    The first one is to complete the international space 
station, because we're going to need to understand what the 
effects are for long duration, long endurance space flight 
necessary and through expeditionary missions to understand 
precisely what the effect is on human physiology. We're just 
beginning to scratch the surface on that now that we're in our 
third continuous year of a permanent presence in space.
    All of the components and modules are stacked up at the 
Kennedy Space Center, arriving there, being tested, integrated, 
worked out to make sure that they're ready for flight. All of 
them were designed to go into the shuttle payload, and so as a 
consequence that is the most efficient way to do that as 
expeditiously as we can, and the long pole in the tent is 
return to flight and getting the shuttle back up to the point 
where we can complete that effort and then accomplish the 
retirement of shuttle at the conclusion of the construction of 
the international space station.
    And that's precisely what the chart attempts to demonstrate 
is it will take us through the end of the decade to complete 
that task in compliance with our international agreements and 
to harvest the research that I think you very accurately refer 
to as an imperative necessary in order to understand precisely 
what the long-term effects are in human physiology. This is the 
most efficient, most thorough way to do it. It takes the least 
amount of time to accomplish that task.
    The other approach----
    Senator Brownback. Director, I'm going to have to interrupt 
you just a minute. I've got to leave for the White House. 
There's a signing ceremony on the Unborn Victims of Violence, 
so I'm going to slip out to that and we'll continue this 
dialogue with you. Senator Stevens will chair the hearing, and 
I'm apologetic for doing that, but I'm just on that timeframe, 
and I apologize.
    Mr. O'Keefe. Not at all, sir.
    Senator Brownback. Senator Nelson.
    Senator Nelson. As we look to the future, I think what has 
been accomplished by these two little rovers is going to have 
some extraordinary implications for the future. Now that there 
is the evidence that there was water on Mars, and as you go 
with your other probes in 2007, 2009, 2011, if I've got my 
years correctly, you can imagine if in the course of one of 
those probes that they're digging around and suddenly find a 
fossil or something of that nature that would indicate that 
there was life on Mars, what I think is the excitement, the 
igniting of the imagination, the igniting of the wanting to 
understand and explore, is going to happily swamp the budgetary 
process and have every reason to want to accelerate to go to 
Mars if you find that evidence.
    And a month ago I wouldn't be saying this, but you have now 
found that there was water on Mars, so I think the way that you 
lay out the budget gives you the opportunity of flexibility by 
the time 2009 and 2011 is coming around, so that then, 
according to the development of technology, we can decide is it 
absolutely essential that we go back to the moon. It might be, 
but who knows? The development of technology at that point, it 
may not be.
    Speaking of that, as we go with your budget here and we 
want access to the ISS, the space station, after you retire the 
shuttle, which is somewhere around 2010, 2011, and you're 
developing some kind of nuclear propulsion, how is that going 
to affect some of the non-proliferation acts that we find that 
we are dealing with here on the earth?
    Mr. O'Keefe. We don't believe there's a specific treatment 
relative to the proliferation acts and the statutory governance 
thereof. We are developing, designing and developing a reactor 
capacity under Project Prometheus. It'll be first demonstrated 
and tested on a mission at the turn of the next decade to 
Jupiter.
    Thereafter, the ultimate goal would be to use as power 
generation and propulsion capability the capacities developed 
under that program, which should be done in full compliance 
with all existing law. We're working this in concert with the 
Department of Energy. The naval reactors community is now a 
partner in that design and development effort and they've had 
50 years of great success of doing this in full compliance. We 
intend to continue that same approach, and this will be a power 
generation and propulsion capacity to accomplish that task.
    Senator Nelson. Looking at trying to get back flying again 
with the shuttle, tell me about these recent discoveries of the 
rudder, the vertical stabilizer, the speed brake, and how those 
gears were not connected there in the proper way. How could 
that potentially delay the return to flight in next March of 
2005?
    Mr. O'Keefe. The rudder speed brake actuator issue, along 
with the development of a boom camera, or a camera to be 
installed at the edge of a boom in order to do a full visual 
inspection on the edges of the leading edge of the orbiter, 
plus the development and ultimate testing of design techniques 
to repair the reinforced carbon-carbon leading edge of the 
orbiter, as well as the thermal protection system tiles, those 
are all the long poles in the tent that are the ones that 
primarily have driven the timing of what we may look at for 
return to flight.
    The other major factor in this is our commitment and I 
think real firm desire to be sure that at least the first 
couple of flights, which will almost exclusively be test 
demonstration flights to make sure we've got all the pieces of 
this done precisely right in accordance with the 
recommendations, has to be done during day-lit hours, so that 
we can conduct all the appropriate imaging at every single step 
through main engine cutoff.
    There are only a finite number of periods of time in a 
calendar that permit that. So past October, there are only 
about two or three windows in which that's feasible and for 
just single digit days at a time. The first major opening is in 
early March of next year, in which we have a continuous period 
of full daylight launch from launch to main engine cutoff so 
that the imagery can be done completely.
    So all those factors combined are what ultimately in our 
return to flight plan have driven us to the current projection 
of where we see an early March next year opportunity, and it's 
driven by every one of those. The rudder speed break issue was 
not something that was called out by the Accident Investigation 
Board. That's something we found as we went through the due 
diligence of the major modification effort for all three of the 
orbiters and determined that nope, it's too close, we couldn't 
prove that it was safe so let's take them all out and make sure 
we examine the corrosion and the cracking that occurred to 
understand precisely why it had happened.
    The correction is not deemed to be an insurmountable 
problem, but understanding the reasons why it occurred is the 
bigger issue we're really wrestling with. And right now, 
everything appears to be well on track to making that time-
frame work very, very successfully.
    Senator Stevens. [presiding]. Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman. Mr. Administrator, 
as you could tell from my opening comment, I continue to try to 
fit all of this into the vessel of sort of comparing what we've 
got now, what's going to be new and the cost benefit.
    Let me start, if I could, we're talking about a lot of 
money for a new initiative and I think everybody, and you, to 
your credit, said there's a ways to go to get some of the old 
initiatives completed. In terms of the CAIB report, how much is 
it going to cost specifically to finish the work envisioned 
there? For example, it seems to me we're a long way away from 
having an answer to how to do the independent technical 
authority, and every time I try to figure out what's going on 
here, it's, well, don't sweat it, Ron, it's in the budget 
somewhere.
    And I think we really need, again, as part of this 
comparing where we're headed to what we've already got 
obligated, we need to know, for example, how much more it's 
going to cost to finish up the accident investigation exercise 
and particularly the independent technical authority which we 
all see as critical?
    Mr. O'Keefe. Absolutely, and I apologize if we've been 
elusive in those responses. There is an update of the current 
return to flight plan that's due to be issued by, I think next 
Friday. We'll be sure that a copy arrives so that you can 
examine that in detail. We update it roughly every 30 days, or 
once a month, every 6 weeks. And as a result, the latest 
projection of cost, which escapes my memory right at the 
moment, is contained in that report, as it was in the last 
report that we issued in early March. Again, I'm just dropping 
on remembering the exact number.
    Senator Wyden. Does it include, for example, the cost of 
completing that independent technical authority?
    Mr. O'Keefe. Yes, sir. All the projections we've included, 
everything we think we understand about what it's going to take 
to implement every one of these recommendations is captured in 
that report.
    Senator Wyden. Any of those nice people sitting behind you 
have that number? How much it's going to cost to finish the 
work envisioned in the CAIB report.
    Mr. O'Keefe. Total amount that's in Fiscal Year 2004 right 
now that came over in the operating plan is $265 million. In 
2005, the budget number that's contained therein is 238, and we 
already incurred $94 million at the end of 2003. So in total 
we're looking at a projection that's going to be on the order 
of $600 million to $700 million roughly to implement all those 
findings and recommendations.
    Senator Wyden. That's including independent technical 
authority?
    Mr. O'Keefe. That's the current projection, but I've got to 
really improve that forecast, because how we actually go about 
implementing that is what is currently about to be concluded 
right now. There's a lot of discussion that's gone on with the 
Stafford-Covey return to flight task group, and the options 
were surrounding, narrowed down to about two or three, and 
precise cost estimates of how many people it's going to take 
and so forth, should not be an enormous number. I just can't 
imagine that because we're looking at existing capabilities.
    Senator Wyden. The plan calls for a new crew exploration 
vehicle that would be tested by 2008, and we're told that there 
really aren't any current plans for the vehicle. And I think my 
question would be, how does the agency build and test an entire 
new space vehicle in 4 years when there really isn't a vision, 
at least at this point, for even the basic aspects of it?
    Mr. O'Keefe. Yes, sir. No, quite the contrary. The crew 
exploration vehicle is building on everything we worked on the 
orbital space plane. Seventy-five percent of the 
characteristics of what you'd need for a capability to go from 
here to station and returning on a crew transfer vehicle is 
common with an exploration vehicle that would go beyond low 
earth orbit, so what we've basically done is evolved the 
orbital space plane to say let's add the important mission 
objective to go beyond station on a return to the moon based on 
a variety of systems components and how you array them in the 
first spiral development that was due to occur in 2008 and then 
thereafter.
    So an awful lot of the work that would be required for 
Project Constellation has been accomplished over the past 18 
months and we're building on that in order to design this 
capability now. The approach that we are going to look to and 
what we do--are looking at is what is the appropriate 
acquisition strategy, if you will, of how to develop and then 
acquire that capability by potentially looking at competing 
designs, varying approaches, because all that got worked out as 
part of the orbital space plane, and again, it's very, very 
common with where we go with the CEV, Project Constellation 
capability.
    So a lot of work's been done and we're way up on the step 
on this relative to where we would be had we started from 
scratch.
    Senator Wyden. Now the Hubble is by everybody's calculus a 
very big success story, arguably providing more scientific data 
than some of the missions. Why drop a relatively inexpensive 
and successful program at this point?
    Mr. O'Keefe. We certainly are not dropping it at all. As a 
matter of fact, we're looking extensively at every possible 
option to extend its service life. It was designed to operate 
through 2005. We can exceed that without doing anything and the 
current projection is that even if we did nothing at all, 
Hubble will probably operate at least through 2007, maybe even 
2008.
    With some judicious use of its operating time and how it's 
actually pointed and so forth, the battery power, the gyros, 
everything else, are strained a lot less if we're really 
careful and conservative about how we utilize it, could get 
more time than that out of it. In addition, we've also asked 
now for a variety of proposals that I referred to in the 
comments the Chairman made to look at a robotic autonomous 
means to extend the battery life, and that appears to be 
something that may have some real traction to it that could, 
again, keep the Hubble operating at its present condition for 
years longer.
    And in addition to all that, what's in the budget is an 
acceleration of the James Webb telescope, which is, again is a 
much greater follow-on to the Hubble capabilities, the 
continued operation of the Spitzer telescope, which was 
deployed last November, as well as the continued operation of 
Chandra and the launch of the Keppler in 2007. So the 
combination of all those, we're trying to look at that. We're 
not giving away Hubble any time earlier than we have to.
    Senator Wyden. My time is up and if I can just make one 
last point, Mr. Chairman, because I know colleagues are here, I 
think it comes back to the concern I raised earlier, is you, 
Mr. Administrator, are extraordinarily capable, and I asked you 
questions that go right to the heart of some of the current 
programs and you basically gave me an answer, we're going to 
figure out how to do that. And I admire that, I mean, I think 
that's part of your history when I supported you from the time 
I chaired your hearing on your confirmation.
    But I think we've got to have that report on the cost 
benefit analysis of manned flight versus the alternatives. When 
you can expect that we'll actually have a full scale analysis 
along the lines of what we've been talking about?
    Mr. O'Keefe. Exactly. I appreciate that, sir, and thank you 
for your patience. Our original effort was we looked at middle 
to late February. It got delayed about a month, and as I 
understand it, at least the preliminary, the first draft of 
this construct has been briefed to the committees last week, 
and we're anticipating a completion of the report and an actual 
write-up within the next 30 days.
    But it really is revealing the kinds of things that you 
first initiated by your suggestion and recommendation that we 
look at this tradeoff and cost benefit analysis, and my cut of 
it is that it really demonstrates that if you want to look at 
individual missions, by all means robotic capabilities are the 
way to go in terms of cost, but you have to have extreme 
frequency of them, as opposed to human missions.
    And so the issue then you have to really weigh is the 
question of how many multiples can you afford in a robotic 
mission, or is it a single-point solution situation like a 
Hubble? Hubble is a perfect example of this where we may 
actually see the advantages of at least maintaining its current 
service performance characteristics by a robotic capability. If 
you want to enhance that capability, you've got a whole other 
set of challenges you've got to work through that do pose the 
risks.
    But we will have that shortly and I understand the outlines 
of it have been briefed and I'd be delighted to sit down and 
talk with you about it as well.
    Senator Wyden. Thank you, and thank you, Senator Stevens.
    Mr. O'Keefe. Thank you, Senator. I appreciate your 
patience.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. This is probably a stupid question but 
I've asked them before.
    Mr. O'Keefe. Never, sir, never.
    Senator Stevens. Any chance that you could test some of 
these things that need testing on the unmanned launches that 
are going to take place between now and March, this break 
actuator, the external tank fixes? Is that possible to test 
them on something that's unmanned?
    Mr. O'Keefe. Probably not. What we're looking at is--let me 
be very specific--the repair techniques that we're looking at 
we are in fact conducting on the KC-135 aircraft that we have 
that simulates the micro gravity condition for seconds at a 
time, and there are various approaches we're using too with 
some land-based systems, which we're using arc jet testing and 
a variety of other things that we think will simulate it, but 
it's never going to be anything like actually trying to conduct 
this on orbit.
    And so there are a number of very key repair techniques 
that are required, and the external tank question is one that's 
very significant in that regard.
    Senator Stevens. Now, I understand that the shuttle 
delivers about 25 tons and brings back about 20 tons. Do you 
know of any vehicle under development today that could replace 
those capabilities as soon as the shuttle could if it will 
work?
    Mr. O'Keefe. Not that I'm aware of, sir.
    Senator Stevens. It's further my understanding that if it 
does work, you've got about 30 missions that would start 
sometime early next year. Is that right?
    Mr. O'Keefe. Yes, sir. The approach max-end is about 30. 
What we're trying to do right now is employ a rigorous approach 
that every single item that needs to go to station must fight 
its way into the manifest, demonstrate why it needs to be 
there. So what we're looking at is the components and the 
modules that have been delivered at the Kennedy Space Center 
and are anticipated to be delivered over the course of this 
next year that require test and checkup to complete the 
international space station. That'll take at least for assembly 
flights at least 15 flights. When you add the logistics flights 
and requirements for additional activities, it could be as many 
as 25.
    So as a consequence we're really trying to minimize the 
number of flights to complete the station and assure that we do 
it right and do it in a way that complies with all of the 
recommendations of the Accident Investigation Board.
    Senator Stevens. Where I'm getting is, let's assume the 
shuttle proves, all the test proves you can use the shuttle, 
and you start using the shuttle in 2005, you're going to use it 
up to about 2010 as I understand it. Will that use slow down 
the development of the other replacement aircraft?
    Mr. O'Keefe. No, sir, not at all. As a matter of fact, the 
approach we're using now is to phaseout the shuttle at the time 
in which we complete station, but continue to operate the 
international space station to yield the research requirements 
we have there and concurrently develop the Project 
Constellation crew exploration vehicle that will require at 
least----
    Senator Stevens. What's IOC for it if it's going to replace 
the shuttle, it's 2010?
    Mr. O'Keefe. No, sir. The earliest we would see on the 
first spiral that would be an unmanned capacity would be 2008, 
probably a second or third development thereafter, and the 
first human-rated capacity we're looking at, to be realistic 
and to be conservative about it, is probably 2013 to 2014.
    Senator Stevens. You're contemplating running the shuttle 
until you're certain you have a replacement, is that right?
    Mr. O'Keefe. Yes, sir.
    Senator Stevens. Thank you very much, Mr. Chairman.

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Mr. Chairman, I must say before you leave 
that I think that our witness here, the Administrator would 
need to know that you were just saying what an excellent job 
that Administrator O'Keefe does, and I said, well, he should, 
he was trained by you, and he said, I know. So he's proud of 
his----
    Senator Stevens. I thought of it but I didn't say it.
    Mr. O'Keefe. Thank you, Mr. Chairman. I'm deeply 
appreciative.
    Senator Nelson. I wanted to get Senator Stevens before he 
left. Senator Stevens took the appropriations bills with him 
and they left. Is he gone? I think there was a disconnect there 
on what he understood the Administrator to answer, and I just 
want to make sure that's clear in the mind of the Chairman of 
the Appropriations Committee.
    Senator Lott. Well, why we're waiting on him to come back 
let me go ahead if I could. Is he coming?
    Senator Nelson. Yes. Senator Stevens, I understood that 
there was a disconnect there in what you understood the 
Administrator to say. Your question was, was the Shuttle going 
to be flown until the new vehicle was ready. And the answer to 
that is not what I thought you understood, yes, but the Shuttle 
under this plan is to be phased out by 2010. The new vehicle 
would not be ready for a human to fly until, the Administrator 
said, at the earliest 2013 and probably 2014, and therein is a 
three- or four-year hiatus in which there is no man-rated 
capability as an American rocket to get to the Space Station.
    I just wanted to clarify that, given the fact that you 
occupy the esteemed position as Chairman of Appropriations.
    Senator Stevens. Only six more months, but we have looked 
at, we have discussed that with the administrator. I do think 
we'll have to reexamine retiring the shuttle. The question is, 
will the shuttle work? If we can fly people in tankers that are 
45 years old, we can fly people in shuttles that are 35 years 
old.
    Senator Lott. [presiding]. Mr. Administrator, I asked you a 
question right along these lines when we met a few weeks ago. 
I'm concerned about that gap. Do you want to comment further on 
this exchange you just had on this particular concern? It is--
it's a natural thing for us to be looking at and thinking 
about, maybe it's a simple answer like the one the Chairman 
just noted. How do you respond to that?
    Mr. O'Keefe. It turns on two assumptions. The first one is 
that the objective is to complete the international space 
station by the end of the decade. We'll see how long that takes 
and that's the way we're currently planning it is to achieve 
that goal. There's not a lot there that would suggest that that 
would be an insurmountable objective. Nevertheless----
    Senator Lott. A lot of it will depend on what funding you 
get from us, right?
    Mr. O'Keefe. Yes, sir, absolutely, no question about it, 
always does. There is no other alternative than that, that's 
for sure. But it also, it really depends, in addition to the 
resource base that the Congress would be willing to provide, it 
also depends on our capacity to actually mount those missions, 
and that's what we're really making sure we do right by the 
return to flight activity.
    So if everything works screamingly successful, we could be 
looking at retirement at the end of the decade. Concurrently, 
if everything works at a very conservative pace, the earliest 
we could look at--or I should say the latest we'd look at is 
the crew exploration vehicle delivery in 2013, 2014. The 
convergence of both of those events could produce something 
that's more near simultaneous if we're able to accelerate the 
spiral development and do this in a way that's successful.
    And the basic approach we're using this time around, 
because we've heard the critics time and time again, we keep 
building everything on the anticipation of wild success, and 
that's not what we're going to do this time. Crew exploration 
vehicle, we're going to demonstrate it in several spirals in 
its capabilities and components before we actually go to the 
human certified--human rated, excuse me--crew exploration 
vehicle. And it may occur earlier than that if this is good as 
we think it could be, but rather than set expectations 
realistically, we're trying to do this as reasonably as we can 
and we may yet see an earlier accomplishment if everything 
works exactly right.
    Senator Lott. Thank you. You may have already answered some 
of the questions I'm going to ask so I'll state them briefly 
and maybe you can respond briefly. First of all, I do 
appreciate that fact that as administrator of NASA you do get 
out and go out around the country and meet with the people that 
make NASA work, you go to the different facilities that we have 
in Florida, Texas, Mississippi, and Alabama, all of them, and 
that makes people feel better about the whole program.
    You were in Mississippi a couple of weeks ago and maybe 
some other facilities right around that same time. I understand 
you had a real good visit.
    Mr. O'Keefe. Outstanding. It's always wonderful to be 
there.
    Senator Lott. Did you get to go home over in New Orleans?
    Mr. O'Keefe. No, sir, I didn't. It was a very short trip.
    Senator Lott. Well, I'm sorry I wasn't there. I was in 
Bratislava, Slovakia speaking to the NATO enlargement meeting 
there, which was an interesting experience also, but we're glad 
that you were there and it went well.
    Mr. O'Keefe. Thank you, Senator.
    Senator Lott. The question I continue to have in my mind 
when I look at your budget requests and for the next fiscal 
year and through 2009, you say that you'll add $12.6 billion 
for the exploration initiative, of which $1 billion only is new 
funding and the rest of it, $11.6 billion is redirected from 
other activities. I still am very leery of that. I think we 
should put more new funding into it, because when you start 
redirecting all this money, you're going to be taking away from 
some good programs. Some probably have seen their better days 
and some that the money could be better used, but I'm not sure 
we're getting very much here, because you're going to be 
resisted in that by a lot of us and you may not get the money 
the way that you're asking for.
    How do you respond to the fact that your $11.6 billion is 
supposed to come from these other activities?
    Mr. O'Keefe. Yes, sir. Well, what the attempt in this chart 
is to display is that it is a transformation of what we're 
involved with. For example, one, the biggest major item in that 
$11\1/2\ billion is a year ago we were projecting roughly $6 
billion to go to the orbital space plane. Now we're projecting 
about $6\1/2\ billion to go to Project Constellation, the crew 
exploration vehicle. So more than half of that difference is 
just the movement of the funding that was intended for the 
orbital space plane, which would only be point-to-point transit 
between here and station, and instead transitioning that same 
asset level and more toward the Project Constellation effort to 
go beyond low-earth orbit, past station, and continue on.
    And it is an array of other things that I could identify 
for the record for you that really make up that difference.
    Senator Lott. Have you already done that in earlier 
questioning?
    Mr. O'Keefe. Yes, sir, but I'd be happy to provide that for 
the record for you as well.
    Senator Lott. That's all right. If you've already done it, 
we'll get access to it.
    Mr. O'Keefe. Yes, sir.
    Senator Lott. One of the things that worries me, as you 
look to the future also, is the infrastructure upgrades that we 
need. As you know very well, you've seen since you've took over 
as administrator, we've starved a lot of that. We have not been 
doing infrastructure upgrades the way we need to. A lot of it 
is old and we're going to need to upgrade it to more modern 
capabilities. You do have some money for that in 2005, right?
    Mr. O'Keefe. Yes, sir.
    Senator Lott. That will go into things like fire security 
and medical emergency operations, emergency energy management, 
things of that nature? Is that correct?
    Mr. O'Keefe. Yes, sir.
    Senator Lott. And then you got to jump over that and go to 
the next problem, which is upgrading the utilities services and 
the propulsion test facilities, RP fuel capability. What are 
your plans on that?
    Mr. O'Keefe. Offhand, I don't recall off the top of my 
head, but let me get you some----
    Senator Lott. Well, I'd like it if you would submit that 
for the record.
    Mr. O'Keefe. Yes, sir, I'd be delighted.
    Senator Lott. Now, another area is, over the last 2 years, 
NASA headquarters had redirected earth science application 
programs away from development of commercial remote sensing 
capabilities toward developing applications to serve mission 
needs of other Federal agencies. Is that correct?
    Mr. O'Keefe. Frankly, sir, we've attempted to make the 
information as broadly available as possible, and so therefore 
have emphasized an all-source, all-access availability of the 
earth science data, and that's more the approach we're using.
    Senator Lott. I'd like for you to provide for the record 
how much has been redirected to other Federal agencies and are 
they paying for it.
    Mr. O'Keefe. Yes, sir. I'll provide a more extensive----
    Senator Lott. Do you think they're paying for it?
    Mr. O'Keefe. Sure. The approach we're using now is we 
deploy and operate--I'm sorry, we deploy the NOAA satellites, 
for example, they pay for the operations and continued 
activities to----
    Senator Lott. I just want to make sure that they're not 
getting a sweetheart deal from NASA, who's been kind of starved 
for money, now you're doing work for them and they are not 
paying for it. Let's make sure that whatever they get, other 
Federal agencies, that they are paying for it.
    Mr. O'Keefe. Secretary Evans thinks he's carrying his 
weight on that, there's no doubt about that, and we agree.
    Senator Lott. For years I have worked to try to make sure 
that all this knowledge we get from NASA exploration across the 
board, science and medicine and technology gets into the 
private sector, and that wasn't a natural movement for NASA, it 
just hasn't been the way they thought. We made some progress in 
that area, but now it looks like you may be looking at it in a 
different way, instead of spin-off technology you want spin-in 
programs.
    I hope that you'll continue to pay close attention to the 
need to make what you learn available to the private sector, 
because that is critical, I think, for development in the 
United States and it's a terrible waste if we just keep it in-
house in NASA or other similarly active technology-developing 
Federal agencies.
    Mr. O'Keefe. Yes, sir. I concur entirely. Our approach 
really has to be to continue to help facilitate that, but with 
the major focus of realizing we aren't particularly equipped to 
figure out the market demand requirements and its applications 
as well as the private sector is. So our approach is really to 
try to determine how to make everything we have as broadly 
available as we possibly can, and that should have little, if 
any, limits to it. I'm constantly amazed every time I hear of 
any limitation on that point, because we ought to make it as 
broadly available as possible and have the private sector make 
determinations of how it can be applied to meet market demands 
they see. That really is the way to facilitate that best and 
it's one that I think is most consistent with the general 
philosophy that the administration is attempting to advance.
    Senator Lott. Are you cutting technology transfers at all?
    Mr. O'Keefe. The debate that within the Administration 
overall, and has been a continuing effort that as 
Administration policy is to, again, avoid setting up specific 
offices for the purpose of trying to identify technologies that 
need to be inserted into some market condition, and instead, 
using the technologies we develop to make it broadly available.
    So what we're trying to do is refocus the attention of 
technology transfer efforts toward making a much broader 
availability of all of the technologies to as wide a business 
base as we possibly can, and that's the approach that we're 
looking to rather than to diagnose how----
    Senator Lott. Does that mean you're going to try to make 
that here in Washington?
    Mr. O'Keefe. No, sir. It's happening at each of the 
individual centers and across the--as a matter of fact, we're 
trying to minimize the amount of activity here in D.C.
    Senator Lott. Good. I'll ask you again, are you cutting 
technology transfer funds?
    Mr. O'Keefe. No, sir, I don't believe so, but let me get 
you--in terms of what the relative dollar amount year to year 
is I'd have to take a look at it.
    Senator Lott. I'd really like to see that, because to the 
average man out there on the street, when the President said 
let's go to Mars, it didn't go over real well. And then if you 
add to that, well, we're going to go to Mars but we're going to 
cut a technology transfer into the private sector where people 
can benefit from that technology, that knowledge and create 
jobs and make money off of it, that won't sell.
    Mr. O'Keefe. Sure, and that's not our intention at all.
    Senator Lott. But let's--when we're--if you go to this--
I've always supported NASA and I can't think of many NASA 
programs I haven't always backed, but as you take this next 
quantum leap, let's don't leave the good stuff behind, and 
that's going to be a real challenge, because you're going to 
have a hard time doing that with the amount of money that you 
get in the budget and from the Congress.
    Mr. O'Keefe. Indeed. Thank you, Senator.
    Senator Lott. Do you have some more questions, Senator 
Nelson? Thank you for being here, Mr. Administrator.
    Mr. O'Keefe. Thank you, Senator. It's a pleasure to be with 
you.
    Senator Nelson. Senator Lott, before you got here, there 
was a comment that would bear directly on what you said, and I 
agree, the average man on the street, you say, let's go to Mars 
and they don't relate to that. They certainly would if they 
understood the development of that technology as it applies to 
their daily lives, as it enhances the quality of their life and 
so forth.
    There's one other factor that can really make a difference, 
and that is what we talked about earlier. If these Mars 
explorers, now after this phenomenal finding that there in fact 
was water on Mars, and if the future explorers in 2007 and 2009 
and 2011 suddenly add to that that in fact discover that there 
was some form of life, then I think you're going to get 
generated a whole new enthusiasm back on planet Earth to want 
to find out was that life developed, and if it was, was it 
civilized, and if so, what happened to it?
    Senator Lott. I think it went to Roswell, New Mexico, 
didn't it?
    Senator Nelson. You know some people said that when we went 
to the moon were they just roaming around on the surface of 
Arizona or New Mexico. But what then would occur, I think, 
would be a new emphasis, a new push to get a human up to Mars 
so that you can have human judgment as the human goes about 
exploring what happened and was there life and how developed it 
was.
    So we've got some exciting times ahead of us especially in 
light of the discovery just within the last 2 weeks about water 
on Mars.
    Mr. O'Keefe. To your point, I think that's precisely the 
right focus is what we've now seen is more conclusive evidence 
that the atmosphere, the climate, and the material condition of 
that planet was substantially different at some point in the 
not-too-distant past.
    Senator Nelson. And, Mr. Chairman, this wasn't little drops 
of water. What the evidence is that there were huge oceans of 
water and that kind of starts to remind you about our own 
planet. And so if it was, what happened to it and how can we 
learn to be better stewards of what we have if something 
similar happened to Mars millions of years ago.
    Now, I hope you're right, Mr. Administrator, that the 
development of this crew exploration vehicle, as you call it 
spirals, would have such phenomenal success that you would 
suddenly have this thing developed and man-rated by 2010 or 
2011 to follow on when you are planning to retire the Space 
Shuttle. But the likelihood looking at history is that it'll go 
the other way. We thought, for example, after we flew Apollo-
Soyuz in 1975 that we were going to be launching the space 
shuttle in 1978, and of course it didn't occur until 1981.
    And so if you do have this longer hiatus, then the question 
is begged to be asked, can we rely on European rockets and 
Russian rockets in order to do all the things that we want to 
do on the Space Shuttle, I mean on the space station, until 
such time as we get this crew exploration vehicle developed and 
ready to fly? You want to comment on that?
    Mr. O'Keefe. Yes, sir, thank you. It's a very challenging 
problem that we're looking at it, there's no doubt about it. It 
really turned on this point. Either we built a program that 
would be contingent completely on success at every interval, or 
put together a realistic program that was probably more 
conservative that it needed to be in order to really look at 
this question and tease out an answer to it.
    And in my mind, the responsiveness of our partners 
throughout the course of the, since the Columbia tragedy, has 
been a testimonial to the fact that we have a depth of this 
partnership that may well sustain us through any of these 
challenging periods that may create a gap. We're going to need 
to work as a partnership though, there's no doubt about it, and 
that's something that the other partners in the international 
space station arrangement have stepped up when we needed it 
most, has demonstrated the depth of it. It has not cost us 
additional amounts in order to do this. They've all been 
willing partners in that engagement.
    And I think the answers to this set of questions, and I 
think they're the ones we have too, will be much clearer and 
easier to understand in the time ahead when we renegotiate the 
agreements that extend through 2006 on what the partners will 
all be responsible for in terms of crew transfer and crew 
return vehicle requirements, and that's something we're going 
to be dealing with here in the months ahead is actually 
reaching understandings about those broader arrangements in 
that intervening period of time and between now and then.
    There's an awful lot of opportunity now to use and consider 
not only shuttle for a continued construction of station, but 
also a different configuration potentially of other crew 
transfer Soyuz capabilities in order to facilitate a larger 
crew size, more frequent, a varying crew size depending on what 
the expedition crew requirements may be. So that's going to get 
clearer here in the time ahead, but it is an issue that we've 
really got to sort through. There's no doubt at it, it has 
those implications.
    Senator Nelson. Give us an update on the Shuttle priority 
upgrades and the Service Life Extension Program.
    Mr. O'Keefe. The approach we've taken is to, attendant to 
the President's announcement that we fly the shuttle through 
completion of international space station with the objective of 
accomplishing that goal by the end of the decade, is we've 
converted the service life extension program effort focus 
toward one that is now more dominantly focused on--not 
exclusive focused on--safety upgrades necessary to sustain 
activities through the end of its service life, as well as 
those modifications that we can do now, given the fact we've 
got this hiatus period in which we can implement those 
capabilities that improve its efficiency as well as, again, 
improve the safety standards that are necessary to continue 
flight after we return to flight.
    And so that effort has converted from, give us the 
modifications it will require or give us the opportunity for 
longer service life, to ones that are now focused very 
dominantly on what can we do to assure safety standards 
consistent with the board recommendations and improve 
efficiency between now and the point in which we retire it.
    Senator Nelson. What is your plan to keep experienced and 
skilled workers as you transition from the shuttle to this crew 
exploration vehicle?
    Mr. O'Keefe. This is going to be a challenge. It's one that 
we need to work through, and I think again one of the real 
virtues of the acquisition strategy we've tried to put in 
motion here for the Project Constellation is the development of 
several, much like Mercury, Gemini, Apollo, looking at several 
spirals in that process to demonstrate capabilities, and 
looking at something as early as 2008 as the initial deployment 
of components of Project Constellation will inform us a lot 
more in terms of how much of a transition we can achieve 
between the conclusion of the shuttle activities and operations 
and over to continued activities under Project Constellation.
    So the earlier we're able to develop that first set of 
spiral development capabilities and components, the sooner 
we'll have an answer I think in terms of how that workforce 
shifting occurs and where the skill mixes are you need for 
launch services, continued servicing activity, operations, all 
the things that are necessary there at the launch complexes.
    Senator Nelson. Thank you.
    Senator Lott. I believe that's all, Mr. Administrator. 
Thank you for taking the time to be with us this afternoon and 
we'll look forward to getting these further answers from you 
and working with you in the future.
    Mr. O'Keefe. Thank you, Mr. Chairman. I appreciate it very 
much.
    Senator Lott. The meeting is adjourned.
    [Whereupon, at 3:25 p.m., the hearing was adjourned.]

                            A P P E N D I X

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    There are three situations that confront us as we begin 
deliberation of NASA's FY 2005 Budget Request. First, we have a bold, 
new vision before us, but one that requires lots of trade-offs. Second, 
we have the circumstances of the Hubble Space Telescope decision that 
NASA made and that is now being reviewed by the National Academies of 
Science. Third, we have the reform of NASA and its safety culture. 
These three circumstances don't point us in the same direction, so we 
have to deliberate on what they mean.
    The President's announcement on January 14 was long on vision, but 
very short on details--and the FY 2005 Budget Request before us today 
hasn't cleared up that problem.
    We don't know much more than we were told on January 14. What we do 
know is that NASA now wants to cancel the Shuttle, limit U.S. 
involvement in the International Space Station that U.S. taxpayers 
built, build a new Crew Exploration Vehicle, and change NASA back to 
focusing almost solely on enabling human exploration of space. These 
are dramatic changes that challenge us to think about our Nation's 
future in space in new ways.
    Of course, having a vision for NASA is good. For nearly three 
decades, NASA floundered with visions that didn't work, results that 
fell short of promises, and management execution that just made things 
worse. We'd like to think that having a new vision will change all 
that.
    But as we seek to understand the few details we have, we are in a 
quandary. This budget says that in order to achieve this vision, we 
have to:

  <bullet> Decide to stop flying the Space Shuttle and commit U.S. 
        astronauts to flying on Russian space vehicles for many years 
        to come;

  <bullet> Interrupt and cancel billions of dollars of research in 
        Earth science, high-energy physics, relativity physics, and 
        solar research; and

  <bullet> Have faith there's enough money in the budget to buy 
        whatever is required, with no good idea what may be required or 
        how much it will cost.

    This budget reminds us that you can't fund ``vision,'' you have to 
have a plan. And NASA tells us their plan is still six months or more 
away.
    And so I am drawn to caution. In this year of tragedy and 
transition, we need to be careful not to play roulette with the U.S. 
Space Program. You can't sustain commitment to the U.S. Space Program 
by shutting it down, and you can't accelerate development while you are 
in a sustained lull.
    Second, the decision to no longer service the Hubble Space 
Telescope is hanging in the air. We await the findings of the National 
Academies on this question, but I will add that if NASA is going to say 
that it can no longer support the Hubble because of risks to astronaut 
crew, then I'm not sure where we are headed on safety.
    The Columbia Accident Investigation Board went out of their way to 
emphasize that the Shuttle was not unsafe and could be flown again; but 
they emphasized that the way NASA went about operating the Shuttle had 
to change. Now, NASA seems to be saying the vehicle is unsafe, and we 
can't take the risk of using it, except when it comes to completing the 
Space Station over the next several years.
    It is not obvious to me that these conclusions are based on safety 
alone; there seems to be a separate clause of expediency that we 
haven't heard explained. We will need to have it explained before the 
Congress is going to enact any new budget or legislation authorizing 
new programs for NASA.
    Third, we have the issues raised by the Columbia Accident 
Investigation Board about cultural changes at NASA that still have not 
been addressed well after the date when NASA first proposed to return 
the Shuttle to flight. NASA seems to be dragging its heels on the 
Board's most important recommendation: establishing an Independent 
Technical Authority over Human Space Flight programs.
    Juxtaposing this situation with the President's call to return to 
the Moon makes a stark contrast. The Columbia Accident Investigation 
Board called for a new space vision in the name of dedication and 
safety. Then an interagency panel met to assess all the pros and cons 
and all the benefits and risks of space flight and come out with a new 
and better approach to human space flight.
    But where is safety in the new vision? Where is the calculation of 
measured risks relative to rewards that we expect to inform our debate.
    Remarkable achievement in space is our National heritage, so we 
must remain open to possibilities, including the possibility that we 
will find new ways of dealing with the risks of space flight. But where 
is that approach in the President's vision and when will it be 
addressed?
    Together, these three circumstances will set the outlines of our 
future debate: whether to adopt this new space vision despite its 
severe consequences and staggering lack of detail; what to learn from 
how NASA has measured risk and reward in its recent Hubble Space 
Telescope and International Space Station decisions; and how and if 
NASA has exhibited the capacity to change itself.
    And each of these examinations will set the standards by which we 
will continue to judge the direction, quality, and merit of NASA as the 
agency makes its first, fledgling steps beyond the tragedy and errors 
of the past year.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           Hon. Sean O'Keefe
    Question 1. As you know, the Columbia Accident Investigation Board 
report found that NASA's focus on a February 19, 2004, launch date for 
Node 2 of the International Space Station ``may well have subtly 
influenced'' the way managers handled the foam strikes on STS-112 and 
the Columbia. The President has recently announced that he intends for 
America to complete its work on the Space Station by 2010. It is 
estimated that it will require 23 to 30 Space Shuttle flights to 
complete the Space Station. The next flight of the Space Shuttle is 
scheduled for the spring of 2005 at the earliest. Considering all of 
these factors, how do you intend to meet the President's time line, and 
still prevent the schedule pressure that played a role in the Columbia 
accident?
    Answer. NASA will only resume flight of the Space Shuttle based on 
the recommendations of the CAIB once specific milestones have been met 
and will operate the Space Shuttle with an emphasis on safety, not 
schedule. NASA is developing its requirements for Shuttle missions 
keeping in mind the primary objective of completing construction of the 
Space Station, including the U.S. components that support U.S. space 
exploration goals and those provided by foreign partners, with the 
minimum number of Shuttle flights. NASA expects to be able to operate 
the Shuttle safely and complete the International Space Station 
consistent with the timetable established in the Vision for Space 
Exploration.

    Question 2. The Fiscal Year 2004 Conference Report for the Omnibus 
Appropriations bill included 151 Congressional add-ons, which cost 
$388.2 million. How do these add-ons affect NASA's operations?
    Answer. NASA's FY 2004 budget submission was developed based on the 
Administration's priorities. The $388.2 million in earmarks in FY 2004 
were not funded as ``add-ons.'' Rather, the earmarks displaced a total 
of $388.2 million in funding planned for ongoing science and technology 
programs through specified and unspecified appropriations reduction. 
Among the programs impacted are: Project Prometheus; the Space 
Interferometry Mission (SIM); Beyond Einstein mission; the Climate 
Change Research Initiative; the International Space Station (ISS); and 
the Space Launch Initiative. The $200 million reduction in the ISS 
program is especially burdensome. The ISS reduction could not be 
accommodated in funding for ongoing ISS operations, forcing the Agency 
to reduce program reserves by $200 million, and thereby placing at risk 
the steps taken last year to address recommendations of the ISS 
Independent Management and Cost Evaluation (IMCE) Task Force. Each and 
every project that is reduced because funding has been redirected 
toward earmarks must be re-evaluated, replanned, and rescheduled, with 
potential cost impacts.
    In addition, the 151 earmarks represent activities that were not 
planned, causing a significant administrative burden on the Agency, in 
terms of review and evaluation of proposals required for earmarks, as 
well as the monitoring of implementation of earmarks. For example, 45 
of the 151 earmarks are managed by NASA's Education Enterprise, at a 
value of $62 million, equivalent to approximately one-third of the base 
budget of the Education Enterprise; management of this number of 
earmarks imposes a very great burden upon Education Enterprise 
personnel.
    Even the earmarks that are intended to augment ongoing Agency 
programs can cause a significant amount of added work. As a result of 
such programmatic earmarks, projects included in the budget request 
must change their scope to be commensurate with the new funding levels. 
This can cause an entire project to change, often impacting other 
programs/projects. For instance, if additional funding is provided for 
a project and a schedule is therefore accelerated, that project may 
need to use a test facility sooner then planned, which may cause 
another project to get ``bumped'', causing the other project to replan 
its program.

    Question 3. On January 16, 2004, you announced that you were 
canceling any future-servicing missions of the Hubble Space Telescope. 
You have stated your rationale for this cancellation.
    On March 17, 2004, you wrote a letter to Dr, Bruce Alberts, the 
Chairman of the National Research Council and the National Academies of 
Sciences, requesting assistance in ensuring that NASA has considered 
all reasonable alternatives to this objective. What results do you 
expect to get from this letter?
    Answer. The decision to cancel any future HST Shuttle Servicing 
Missions was based on a very deliberative investigation of the safety 
issues involved with going to HST's unique orbit and in adhering to the 
recommendations of the Columbia Accident Investigation Board. Members 
of Congress, while understanding the rationale of not putting our 
astronauts in a position of undue risk, asked that NASA engage the 
National Research Council to conduct an outside review. They have 
agreed to do this and we look forward to their thoughtful input.

    Question 4. One of the recommendations of the Columbia Accident 
Investigation Board is that NASA develop the ``capability to inspect 
and effect emergency repairs to the widest possible range of damage to 
the Thermal Protection System'' of the Space Shuttle, including the 
tiles and Reinforced Carbon-Carbon panels. What is the status of the 
research being done to implement this recommendation?
    Answer. NASA has made significant progress in developing credible 
tile repair processes and materials. An existing, silicone-based, cure-
in-place ablator has shown positive results in development testing. A 
manufacturing process change appears to control a foaming problem 
observed during early vacuum tests. The material adheres to aluminum, 
primed aluminum, tile, strain isolation pads, and tile adhesive in 
vacuum and cures in a vacuum. This tile repair material has now 
transitioned to characterization and qualification testing. Detailed 
thermal analyses and testing are under way to confirm that this 
material can be applied and cured in the full range of orbit 
conditions. Additional arc jet, radiant heating, thermal-vacuum, and 
KC-135 zero gravity tests are scheduled to confirm that this material 
will survive the entry environment when applied using the proposed 
repair techniques. Assuming the continued testing of the existing 
ablator is successful, the tile repair materials and tools should be 
ready in the December 2004-March 2005 timeframe.
    The RCC repair effort is still in the concept definition phase and 
is much less mature than the tile repair material study. The RCC repair 
project is pursuing three complementary repair concepts that together 
will enable repair of a wide variety of potential RCC damage: Plug 
Repair, Rigid Wrap Repair and Crack Repair. Plug Repair consists of an 
insert intended to repair holes in the wing leading edge (WLE) with 
sizes from 1/2" to 4" in diameter. The Rigid Wrap is a complete over 
wrap for a given RCC panel intended to repair any catastrophic damage 
detected on the panel. Crack Repair uses a material application to fill 
cracks and small holes in the WLE. All three concepts are expected to 
have limitations in terms of damage characteristics, damage location, 
and testing/analysis. Schedules for design, development, testing, 
evaluation, and production of these concepts are in work and we are 
evaluating the concepts across six NASA centers, 11 contractors, and 
the United States Air Force Research Laboratory.

    Question 5. On March 27, 2004, NASA's X-43A broke the flight speed 
record by reaching a hypersonic flight and a top speed of 5,000 miles 
per hour before being intentionally ditched in the sea. According to a 
March 29 article in Space News, NASA is looking at canceling the X-43C, 
which is a follow-on to this program. What are your thoughts about the 
future of this program?
    Answer. As a result of the success of the X-43A Mach 7 flight, we 
are planning to fly another hydrogen-fueled X-43A at Mach 10 in 
September 2004.
    With the establishment of the National Aerospace Initiative by the 
Department of Defense (DOD), NASA aligned its follow-on hypersonics 
research (known as the Next Generation Launch Technologies (NGLT) 
Program) as a partner in the initiative. NASA's mission need for access 
to space served as the primary basis for continued research, while 
DOD's interest was in a weapons platform. In January 2004, The Vision 
for Space Exploration was announced. Since the Vision for Space 
Exploration does not rely on air-breathing propulsion for access to 
space, NGLT work has been redirected. As a result, NASA has informed 
the Department of Defense that it will not be able to provide resources 
for the X-43C. The DOD is building the hydrocarbon-fueled ram/scramjet 
for the vehicle and NASA was to build the airframe. The DOD will 
determine the future of the X-43C program.
    As to the future of hypersonic research within NASA beyond the X-
43A Mach 10 flight, NASA is examining the scope and purpose of the 
hypersonic activities and priorities vis a vis NASA's current 
aeronautics research.

    Question 6. The Crew Exploration Vehicle is now estimated to cost 
$24 billion to build and operate. What steps do you intend to take to 
control the development costs for the Crew Exploration Vehicle?
    Answer. There are three critical issues necessary to control 
development costs of complex systems like the CEV: first is the 
generation and control of requirements; second an evolutionary 
acquisition strategy that enhances the ability to estimate cost while 
allowing technology maturation program to flow into future development 
spirals; and third, effective program control using earned value and 
risk management tools to closely track contract performance.
    The requirements process is the key to the formulation of a sound 
program. An integrated NASA process for generating Level 0 requirements 
based on the Vision for Space Exploration has been developed. A 
rigorous approach to the development of Level 1 requirements is in 
place. To minimize costly requirements changes downstream, the 
requirements process includes users, technologists, engineers and 
operators (astronauts). The process also incorporates extensive 
modeling and simulation of the integrated system to identify capability 
gaps that will be the basis of the risk management process. In 
addition, it maximizes the input of industry, academia, and the NASA 
centers through Broad Agency Announcements (BAA) to generate concepts, 
identify risks, and determine technology leaps that will influence 
updated requirements prior to initiation of CEV development.

    Question 7. What steps is NASA taking to develop these new 
capabilities (launch)?
    Answer. NASA has initiated studies to evaluate concepts for crew 
and cargo launch vehicles for human exploration missions, including 
existing and evolutionary concepts based on the Evolved Expendable 
Launch Vehicle (EELV). Follow-on studies will address launch system 
capability of the human-rated CEV. These studies will determine the 
acquisition strategy for launch and will be integrated into the overall 
systems acquisition strategy for exploration missions.

    Question 8. China recently announced its plans to move up the 
launch date of its moon orbiter to 2006. What effects do the space 
exploration plans of countries like China and India have on NASA's 
space exploration agenda?
    Answer. The President directed NASA to pursue international 
cooperation in implementing the Vision for Space Exploration. Where 
other nations have exploration plans that complement the work NASA will 
pursue, and where cooperation serves broader U.S. foreign policy goals, 
NASA will explore the potential for cooperative efforts. The vision 
itself was developed to serve U.S. national goals and was not 
influenced by the space activities or plans of other particular 
nations.

    Question 9. NASA is also pursuing Project Prometheus, a program to 
develop a nuclear-powered orbiter that will search for evidence of 
oceans on Jupiter's moons: Europa, Ganymede, and Callisto. What is the 
status of this program?
    Answer. A detailed status has been completed in response to a prior 
Congressional request and will be updated quarterly. The first 
quarterly Project Prometheus report has been forwarded to Congress. 
Enclosure 1

    Question 10. What are the steps that NASA will take to address 
public concerns about the use of nuclear power in space?
    Answer. Throughout its forty-year history, NASA has relied on 
nuclear energy to power a range of important exploration missions. To 
support a better understanding between policy makers and the public 
regarding nuclear energy and the important role it plays in space 
exploration, Project Prometheus has created the Communications, 
Engagement and Outreach (CEO) project. The CEO project is in an initial 
planning phase to establish mechanisms for exchanging information with 
the public and is committed to establishing clear, consistent, and 
transparent communications processes. The CEO project combines aspects 
of public affairs, risk communication and participatory public 
engagement strategies, and in addition, will rely on informal and 
formal education and public outreach efforts.
    In this initial phase, NASA is working with The Keystone Center,\1\ 
via a contract with Jet Propulsion Lab (JPL), to identify areas of 
public concern and to identify organizations that may take an interest 
in the program. In parallel, Project Prometheus is sponsoring workshops 
with experts in the fields of formal and informal education and public 
outreach to assess opportunities for public engagement in these areas. 
The results of these activities will form the basis of a long-term 
communications, engagement, and outreach plan.
---------------------------------------------------------------------------
    \1\ The Keystone Center is a non-profit, independent mediation and 
facilitation organization, founded in the 1970s that uses scientific 
reasoning, analytic frameworks, and alternative dispute resolution 
techniques to build consensus and sustainable policies. The Keystone 
Center has been on contract to JPL to provide information and 
facilitation services for the Mars program, and expanded its contract 
at the request of NASA HQ, to include Project Prometheus.
---------------------------------------------------------------------------
    NASA is considering options for engaging organizations and 
individuals in a dialogue that includes discussions of the technical 
risks presented by our use of complex technologies and processes. 
``Engagement in a dialogue'' is a term of art that requires 
communicating an Agency's, or a program's, vision, goals, and specific 
near-and long-term plans, and in turn understanding the publics' 
issues, interests, and concerns. It is our hope that through such 
dialogue and mutual understanding that effective programs and processes 
can be developed to increase public confidence in why and how we intend 
to meet our objectives. For Project Prometheus, this means increasing 
public understanding of, and confidence in, space nuclear power and 
effectively addressing concerns about our safety and risk management 
processes and, furthermore, requires establishing clear and transparent 
decision-making and communications processes.
    Through the CEO project, NASA intends to establish a regular 
dialogue with interested organizations and individuals, to listen to 
and better understand public opinions and concerns, and to share our 
goals and plans.

    Question 11. The current schedule for the return to flight of the 
Space Shuttle is next year. If that schedule slips, it makes it more 
likely that NASA will not be able to complete the assembly of the 
International Space Station by 2010. The Columbia Accident 
Investigation Board report calls for a re-certification of the Space 
Shuttle orbiters if the are operated beyond 2010. Do you have any 
estimates of the cost of such a re-certification?
    Answer. NASA is dedicated to safely meeting the Vision for Space 
Exploration's planned timetable that would complete assembly of the ISS 
and allow the Space Shuttle to be retired by the end of this decade. 
However, it is prudent for the Agency to develop contingency plans, so 
we are reassessing the need to recertify Space Shuttle systems, 
subsystems, or components based on alternate timetables of the phase-
out of the Shuttle program. The technical work required to determine 
when and if recertification is needed will continue into this summer. 
Once the technical definition of the recertification tasks is 
completed, cost estimates will be developed on the items we would need 
to recertify and these estimates will be made available for discussion.

    Question 12. The Columbia Accident Investigation Board report 
called for the establishment of a Technical Engineering Authority. It 
is not clear where the funding for this function is located within the 
FY 2005 budget request. Can you identify where in the budget request 
this organization would be funded?
    Answer. In the FY 2005 President's Budget, funding for the new 
independent Technical Engineering Authority (now referred to by NASA as 
the Independent Technical Authority, or ITA) is currently included in 
the various Program/Project budgets. To implement the Columbia Accident 
Investigation Board's (CAIB's) recommendation for independent authority 
of the ITA, while maintaining an appropriate level of accountability 
within the program, NASA is planning to provide resources to our 
engineering and safety and mission assurance organizations that perform 
ITA tasks through an ITA/Safety and Mission Assurance (SMA) Service 
Pool. (Service pools are full-cost accounting mechanisms to charge 
support services to programs and projects based on consumption.) The 
final decision on the level of funding in the ITA/SMA Service Pool for 
each project will be determined outside of the program manager's 
decision authority, as recommended by the CAIB. The NASA Centers are 
currently determining resource needs for the ITA/SMA Service Pool as 
part of the FY 2006 budget planning cycle, with the goal of activating 
the new service pool in October 2004 for the FY 2005 accounting year. 
Funding for the service pool will be reallocated from existing 
programmatic budgets once this proposed response to the CAIB's 
recommendation has been developed to a level that is satisfactory to 
NASA, and has been reviewed with the various independent organizations 
involved (including the Stafford-Covey Return to Flight Task Force, the 
Aerospace Safety Advisory Panel, the NASA Inspector General, and 
Congress itself). Although the degree to which additional costs may be 
attributed to the ITA is highly dependent on the detailed approach that 
will serve to implement the CAIB's recommendation, the approach 
presently being developed and implemented is not expected to require 
significant additional resources.

    Question 13. The Columbia Accident Investigation Board report cited 
cultural problems are equally responsible for the Columbia accident as 
the technical causes. How much progress has NASA made in resolving the 
cultural issues identified in the report?
    Answer. Background: NASA had begun to address issues of ``culture'' 
before the Columbia accident. Even as the 2002 Federal Human Capital 
Survey results identified NASA as one of the best places to work in the 
Federal Government, a grassroots effort was underway to explore issues 
within the NASA culture that, if addressed, could improve the Agency's 
effectiveness and performance.
    In July 2002, a team of NASA and contractor employees began working 
to assess the feasibility and define the action plan needed to create a 
more highly unified NASA organization. This One NASA team set out to 
formulate a set of specific recommendations for organizational and 
cultural change, emphasizing teamwork and collaboration across the 
Agency, which would elevate NASA to a new level of effectiveness and 
performance.
    The CAIB issued its report in August 2003, a mere 7 months after 
the tragic loss of Columbia and her crew, and found that NASA's history 
and culture contributed as much to the Columbia accident as any 
technical failure. This is explicitly identified in the Organizational 
Cause Statement found in Chapter 7 of the report. This chapter gave us 
a very candid look into our organizational culture and provided us with 
a great opportunity to take a deeper look our culture, to look at those 
aspects that are positive and also those that need improvement, and to 
take action to achieve positive, long-lasting change at NASA.
Progress and Actions
Safety Climate and Culture Survey
    Based upon the CAIB report and our desire to place even greater 
attention on moving to a more effective culture, we felt it would be 
beneficial to engage external expertise to assist us in developing and 
deploying an organization plan for culture change at NASA. To this end, 
on February 9, 2004, NASA awarded a contract to Behavioral Science 
Technology, Inc. (BST), an organization with specific expertise and 
proven track record helping organizations achieve safety excellence 
through culture transformation and leadership development.
    The first part of BST's effort involved establishing a baseline of 
our culture by administering a Safety Climate and Culture Survey. BST 
delivered the final survey results, along with a recommended 
implementation plan for NASA to achieve positive improvements in its 
culture, in a report entitled, Assessment and Plan for Organizational 
Culture Change at NASA, which is available on the NASA HQ website 
(http://www.nasa.gov/about/highlights/index.html).
    The results of the survey support NASA's legacy of technical 
excellence, teamwork, and pride, indicating that we are strong in areas 
such as teamwork, work group relations, approaching coworkers about 
safety concerns, and reporting incidents or deviations that affect 
safety. The survey also identifies important safety and organizational 
issues that must be addressed before we can initiate positive changes 
within the agency. There is a general perception that the organization 
as a whole does not show concern for the needs of employees. There is 
also a perception that there are deficiencies in the quality and 
quantity of upward communication about safety issues.
    While these issues are similar to those highlighted in the Columbia 
Accident Investigation Board Report, this Assessment and Plan for 
Organizational Culture Change at NASA has given us specific data to 
assess organizational functioning down to the directorate level, as 
well as a specific plan of action for improving these aspects of our 
culture.
Implementation Plan
    One of the first steps of this plan will be for the core leadership 
team to validate and embrace NASA's Core Values. These values will 
drive the culture change effort. The plan also calls for focused 
change-related activities to take place at specific Centers and 
Directorates, with the aim of achieving measurable results in five 
months.
    These activities will first take place at Glenn Research Center, 
the Engineering and Mission Operations Directorates at Johnson Space 
Center, the Safety and Mission Assurance Directorates at Goddard Space 
Flight Center and Kennedy Space Center, and at Stennis Space Center. 
Activities at these locations will include leadership practices 
assessments, development of individual action plans for Center 
leadership, behavioral observation and feedback, and behavior-based 
project team effectiveness training.
    Additionally, in the next months, BST will assist each Center in 
developing Center-specific implementation plans to achieve positive 
cultural improvements, driven from NASA's core values, while 
accommodating the unique needs of each Center. At the end of five 
months, we will use specific data and feedback to determine if 
measurable progress has been achieved, including whether NASA 
leadership has adopted behaviors that support the desired culture. Once 
measurable progress has been achieved and the processes used to achieve 
forward progress have been validated, NASA plans an agency-wide 
deployment of the above-mentioned approach.
    In addition to specific implementation steps we can undertake to 
achieve positive change in our culture, the plan also emphasizes the 
need for a single culture change initiative that integrates existing 
activities where appropriate but minimizes the proliferation of 
multiple approaches, philosophies, models, methods, and terminology. 
This culture change effort that NASA is undertaking will serve as an 
integration point to ensure that all the Agency's ongoing efforts 
related to culture change are aligned in a manner conducive to a 
comprehensive organizational culture change.

    Question 14. You mentioned in your written statement that NASA 
provides $100 million to the Climate Change Science Program. How much 
NASA funding is provided for the U.S. Global Climate Change Research 
Program?
    Answer. The U.S. Climate Change Science Program (CCSP) is composed 
of the U.S. Global Change Research Program (USGCRP) and the Climate 
Change Research Initiative (CCRI). The CCRI is designed to build on the 
long-term research of the USGCRP and accelerate progress in key areas 
of scientific uncertainty. NASA's FY 2005 Budget Request includes a 
total of $1.3 billion for the CCSP, $1.2 billion of which supports 
USGCRP activities. The remaining $0.1 billion (cited in the written 
statement) reflects NASA's proposed contribution to the CCRI.

    Question 15. Can you update the Committee on NASA's use of the 
authorities granted to the agency by the recently passed NASA 
Flexibility Act of 2004?
    Answer. The Act requires NASA to submit to Congress a written plan 
(the Workforce Plan), approved by the Office of Personnel Management, 
90 days prior to exercising the new authorities. The approved Workforce 
Plan was provided to the appropriate committees of Congress, including 
the Senate Commerce Committee, on April 8, 2004. Therefore, NASA will 
be able to exercise the authorities in the Act as of July 8, 2004.
    To ensure that the Agency is prepared to use the new flexibilities 
effectively and that employees are well informed about them, NASA has 
been actively engaged throughout the past several months in providing 
information regarding the Act to employees, managers, and employee 
representatives through a variety of media.
    The authorities in the NASA Flexibility Act of 2004 will provide 
NASA with critical tools for recruiting and retaining a world-class, 
diverse workforce, and we appreciate the Committee's support of this 
legislation.

    Question 16. You recently wrote Senator Bond concerning the number 
and amount of Congressional earmarks. How important is it that these 
earmarks are minimized to the future success of the agency?
    Answer. Recognizing the significant challenges faced by Congress 
regarding fiscal responsibility in an environment in which 
discretionary resources are highly constrained, and NASA's efforts to 
align the Agency's budget to achieve the goals and objectives of the 
Vision for Space Exploration, it is incumbent upon the Congress and 
NASA to work collaboratively to execute an effective and productive 
NASA budget for FY 2005 and beyond. It is critical that earmarks be 
minimized so as to avoid displacing funding for ongoing and proposed 
science and technology programs, resulting in schedule slippage and 
cost growth. It is also critical that earmarks that are included in 
annual appropriations action be meritorious as well as consistent with, 
and in furtherance of, NASA's mission.

    Question 17. You have mentioned in your written statement that the 
approach to the new vision for exploration is intentionally flexible, 
with investments in sustainable exploration approaches to maintain 
affordability. What does that mean?
    Answer. The Vision for Space Exploration provides the guiding 
principles for a sustained and affordable exploration of our Solar 
System and beyond. It defines objectives for a robust space exploration 
program, and tasks NASA to develop programs and plans to implement this 
vision. The vision will require a collection of new programs, some near 
term, and others to be developed in the future. With each step, as we 
build, test and then explore, we will learn more about the challenges 
to overcome as we continue our exploration vision. We then exercise the 
flexibility in future programs to update requirements with what we have 
learned. This is the core of what we have described as the spiral 
development model.
    To ensure that each program contributes to a sustainable approach 
for exploration, we are developing an over-arching framework of 
requirements and architecture to guide the development of individual 
programs. These requirements and architecture will be used to ensure 
that individual programs are not just optimized to meet their own 
requirements, but also consider the requirements of the longer-term 
vision. We intend to develop capabilities that are not optimized for 
single mission scenarios, but are robust enough to support the 
exploration decisions to be made in the future.
    Regardless of the direction taken, NASA is committed to pacing 
achievement of the exploration vision with reasonable budgetary 
increases; in the outyears the plan is to pace progress with budget 
increases based only on inflationary growth.

    Question 18. When will the Congress have a better estimate of the 
costs of the new exploration initiative?
    Answer. Based upon re-aligning priorities and retiring the Space 
Shuttle, with the requested additional resources provided in the near 
term, NASA believes that the programs required to implement the new 
vision can be accomplished within expected future budget levels. The 
new initiative is in fact a long-range vision to be comprised of 
multiple programs and projects, many of which will be formulated only 
after gaining knowledge and experience from preceding programs and 
projects. For this reason, it is not possible to offer a meaningful 
total cost estimate for this long-term initiative, but as NASA 
establishes specific requirements and develops the details for each 
program within this long-range vision, costs baselines for each program 
will be established and provided to Congress.
                                 ______
                                 
                              Enclosure 1

       FY 2004 Prometheus Quarterly Report Through March 31, 2004

    Prior to the January 2004 reorganization of NASA, Project 
Prometheus, comprised of the following three program elements, was 
managed within the Space Science Enterprise:

  <bullet> Nuclear Power (Radioisotope Power System (RPS) Research and 
        Development)

  <bullet> Jupiter Icy Moons Orbiter (JIMO, Mission Development)

  <bullet> Nuclear Propulsion (Technology Research)

    Following the establishment of the Exploration Systems Enterprise, 
the last two program elements listed above were moved under the 
management responsibility of this new Enterprise. The Radioisotope 
Power System (RPS) Research and Development activity remains in the 
Space Science Enterprise, as does the new element related to Jupiter 
Icy Moons Orbiter science. However, NASA still views Project Prometheus 
as representing all facets of NASA's space nuclear power and propulsion 
development efforts. Therefore, this report contains information on the 
following program elements, the first and last of which reside in the 
Space Science Enterprise, while the others are managed by the 
Exploration Systems Enterprise:

  <bullet> Radioisotope Power System (RPS) Research and Development 
        (Space Science Enterprise)

  <bullet> Jupiter Icy Moons Orbiter Mission (Exploration Systems 
        Enterprise)

  <bullet> Multi-Mission Space Nuclear Power and Propulsion Research 
        Technology (Exploration Systems Enterprise)

  <bullet> Advanced Space Nuclear Power and Propulsion Research 
        Technology (Exploration Systems Enterprise)

  <bullet> JIMO Science (Definition and Instrument Development) (Space 
        Science Enterprise)

    This report includes milestones and budgets in accordance with the 
President's five year budget request, is organized by program element 
and includes (1) objective, (2) budget, and (3) milestones.
    The attached report provides program milestones and funding paths 
for Project Prometheus for the five years starting with FY 2005. Costs 
estimates and associated milestones for the next ten years are still 
being developed. NASA separates ``missions in formulation'' (such as 
JIMO) from those that have passed the appropriate definition phases and 
reviews, including independent cost review, non-advocate review, and 
preliminary design review, that are required for a mission to be 
considered ``in development.'' Experience has shown that cost estimates 
are unstable during the initial definition and design phases of a 
project, as the details of the project are developed in preparation for 
the preliminary design review. Conducting a non-advocate review and 
confirmation review before committing to the project's composition, 
cost estimate, and schedule, is considered important to developing a 
reliable life cycle cost estimate. Under this somewhat new practice at 
NASA, a project's life cycle cost estimate is not considered firm until 
the completion of these activities.

                      FY04 Presidential Budget as enacted (FY04) and as submitted (FY05-08)
----------------------------------------------------------------------------------------------------------------
                                           FY04         FY04      FY04  (Op
           Program Element              (Request)    (Enacted)      Plan)       FYO5     FY06     FY07     FY08
----------------------------------------------------------------------------------------------------------------
Nuclear Power (Radioisotope Power             55.7         47.4         19.8     70.9     56.4     60.3     59.3
 System Research and Development)*
----------------------------------------------------------------------------------------------------------------
Jupiter Icy Moons Orbiter (JIMO,              92.6         87.1         84.0    308.1    491.1    574.5    603.9
 Mission Development)
----------------------------------------------------------------------------------------------------------------
Nuclear Propulsion (Technology               130.9        123.2        116.9    168.2    164.6    107.9    108.1
 Research)
----------------------------------------------------------------------------------------------------------------
Total by FY                                  279.2        257.7        220.7    547.2    712.1    742.7    771.3
                                                      (includes
                                                          $1.3M
                                                    rescission)
----------------------------------------------------------------------------------------------------------------


                   FYO5 Presidential Budget Submittal
------------------------------------------------------------------------
      Program Element          FY05     FY06     FY07     FY08     FY09
------------------------------------------------------------------------
Nuclear Power (Radioisotope     70.9     56.4     60.3     59.2     60.8
 Power System Research and
 Development)*
------------------------------------------------------------------------
Jupiter Icy Moons Orbiter      229.0    250.0    270.0    290.0    310.0
 (JIMO, Mission
 Development)
------------------------------------------------------------------------
Nuclear Propulsion             208.0    179.0    155.0    136.0    114.0
 (Technology Research)--        10.0     25.0     42.3     42.5     42.2
 Electric Propulsion
 (contained in Code S
 budget)
------------------------------------------------------------------------
JIMO Science (Definition        12.5     25.0     25.0     25.0     25.0
 and Instrument
 Development)
Total by FY                    530.4    535.4    552.6    552.7    552.0
------------------------------------------------------------------------
*Multi-Mission Radioisotope Thermoelectric Generator activities are
  contained in the Mars Program budget within Code S and are not
  reflected in this table.

Radioisotope Power System (RPS) Research and Development
Objective
    Reestablish and strengthen NASA's capacity to conduct science-
driven, long-lived solar system and planetary surface exploration using 
radioisotope power systems by providing NASA space science and 
exploration mission planners with reliable, long-lived, rugged power 
sources, from milli- to multi-hundred watt.
    This program element is comprised of the following four activities:

  1)  Multi-Mission Radioisotope Thermoelectric Generator (MMRTG) 
        Development

  2)  Stirling Radioisotope Generator (SRG) Development

  3)  Advanced Radioisotope Power Conversion Research

  4)  Purchase Plutonium-238 from Russia for civil use
Accomplishments Through March 31, 2004

  <bullet> FY02--Competitively awarded development contract for 
        Stirling Radioisotope Generator (SRG) to Lockheed Martin.

  <bullet> FY02--Initiated testing of Stirling technology demonstration 
        convertors at NASA Glenn Research Center.

  <bullet> FY03--Competitively awarded development contract for Multi-
        Mission Radioisotope Thermoelectric Generator (MMRTG) to Boeing 
        Rocketdyne, supported by Teledyne Energy Systems.

  <bullet> FY03--Competitively awarded 10 Power Conversion Technology 
        Research contracts (Sunpower/Boeing, Creare Inc./Boeing, 
        Teledyne (2), Creare Inc., Massachusetts Institute of 
        Technology, Edtek, Cleveland State University, Essential 
        Research, Hi-Z).

  <bullet> FY03--Completed Preliminary Design Review of SRG Engineering 
        Unit.

  <bullet> FY03--Established new contract with Russian government for 
        purchase of 15 kg of plutonium-238 (Pu-238) over next 5 years 
        with an option for additional 15 kg.

  <bullet> FY04--Placed order for 5kg of Pu-238 from Russia.

  <bullet> FY04--Completed Preliminary Design Review of MMRTG 
        Engineering Unit

  <bullet> FY04--Held Phase 1 midterms for 10 Power Conversion 
        Technology Research contracts.

  <bullet> FY04--NASA Glenn Research Center Stirling power test 
        converter exceeded 5,000 hours of continuous operation
1) Multi-Mission RTG (MMRTG) Development
    Objective: Develop thermoelectric-based power units capable of 
operating in space and on planetary bodies with atmospheres.

    Milestones:

  <bullet> FY05--Complete Engineering model fabrication and tests.

  <bullet> FY06--Complete Qualification Unit fabrication.

  <bullet> FY07--Complete Qualification Unit tests.

  <bullet> FY08--Complete first Flight Unit available for missions.
2) Stirling Radioisotope Generator (SRG) Development
    Objective: Develop Stirling power cycle-based power units capable 
of operating in space and on planetary bodies with atmospheres.

    Milestones:

  <bullet> FY04--Hold Final Design Review.

  <bullet> FY04--Complete Engineering model fabrication and tests.

  <bullet> FY06--Complete Qualification unit fabrication and tests.

  <bullet> FY08--Complete first Flight Unit available for missions.
3) Advanced Radioisotope Power Conversion Research
    Objective: Develop advanced heat-to-electrical power conversion 
technology that would enable development of future radioisotope power 
systems with higher power, lower mass, and/or higher efficiency 
(reduced Pu-238 usage).

    Milestones:

  <bullet> FY06--Complete component testing and evaluation of 
        technologies under the Power Conversion Technology Research 
        contracts
4) Purchase Plutonium-238 from Russia for civil use
    Objective: Procure adequate supplies of Plutonium-238 to meet 
NASA's space exploration requirements.

    Milestones:

  <bullet> FY05-FY08--Place order for 5 kg installments of Pu-238 (5 kg 
        per year).
Jupiter Icy Moons Orbiter Mission
Objective
    Enable significantly expanded scientific exploration, employing 
scientific investigations and instruments well beyond what is currently 
possible, of Jupiter's three icy moons, Callisto, Ganymede, and Europa 
by the middle of the next decade through the development and 
demonstration of the safe and reliable operation of nuclear space power 
and propulsion systems.
Accomplishments Through March 31, 2004

  <bullet> FY03--Awarded three aerospace/nuclear industry study 
        contracts (Boeing, Lockheed Martin, Northrop Grumman) for JIMO 
        multi-mission spacecraft (Phase A).

  <bullet> FY03--Formed government team of NASA and DOE personnel to 
        study JIMO spacecraft and plan technology investments for 
        multi-mission capability.

  <bullet> FY03--Completed JIMO multi-mission space reactor conceptual 
        design assessments.

  <bullet> FY03--Formed JIMO Science Definition Team (SDT) to study the 
        range of investigations of Jupiter and its icy moons made 
        possible with the proposed JIMO system.

  <bullet> FY03--Initiated feasibility study on high capability science 
        instruments enabled by the JIMO system.

  <bullet> FY03--Initiated annual high capability science instrument 
        development program.

  <bullet> FY04--Completed final report of JIMO Science Definition 
        Team. The report included input on detailed science objectives, 
        measurements, and requirements for the JIMO spacecraft and 
        mission.

  <bullet> FY04--Completed feasibility study on high capability science 
        instruments for the JIMO mission.

  <bullet> FY04--Initiated annual outer planets Research and Analysis 
        program.

  <bullet> FY04--Completed final report of JIMO Science Definition 
        Team, including input on detailed science objectives for JIMO, 
        and completed instrument concept study.

  <bullet> FY04--Completed formal tasking of DOE-Naval Reactors to 
        support Project Prometheus and JIMO

  <bullet> FY04--DOE-NR initiated formulation of a development plan, 
        schedule, and budget for the JIMO space reactor.

    Milestones:

  <bullet> FY04--Issue Request for Proposal for JIMO spacecraft.

  <bullet> FY04--Complete feasibility study of simple landed science 
        packages for the icy moons.

  <bullet> FY04--Competitively award technology development contracts 
        for high capability science instruments.

  <bullet> FY04--Competitively award Research and Analysis contracts 
        for outer planets research.

  <bullet> FY05--Complete second phase of spacecraft technology trade 
        studies and conceptual design by competing industry teams (3) 
        and government team (NASA/DOE).

  <bullet> FY05--Competitively select industry aerospace contractor for 
        JIMO spacecraft.

  <bullet> FY05 through FY07--Perform spacecraft preliminary design 
        (Phase B).

  <bullet> FY07--Initiate spacecraft detailed design (Phase C).

    The former element, Nuclear Propulsion (Technology Research), now 
consists of two elements:

1)  Multi-Mission Space Nuclear Power and Propulsion Research 
        Technology

2)  Advanced Space Nuclear Power and Propulsion Research Technology
Multi-Mission Space Nuclear Power and Propulsion Research Technology
Objective
    Enable new classes of space science and exploration robotic 
missions not possible with current space propulsion and power systems, 
through the development of space nuclear reactor and electric 
propulsion technologies that would support the first flight mission 
enabled by nuclear electric propulsion. Technologies developed under 
this element will be, to the extent possible, multi-mission capable and 
applicable to near-term nuclear electric propulsion mission 
applications.

  <bullet> Provide significantly larger amounts of power for electric 
        propulsion, scientific instruments, and data return

    This program element is comprised of the following three 
activities:

  1)  Multi-mission Power Conversion Research

  2)  Multi-mission Electric Propulsion Research

  3)  Multi-mission Nuclear Fission Reactor Research
Accomplishments Through March 31, 2004
  <bullet> FY02--Completed Industry and Academia Request for 
        Information on technologies for nuclear propulsion, and 
        conducted industry briefings.

  <bullet> FY02--Completed a series of detailed, in house (NASA and 
        Department of Energy) mission studies, out of which emerged the 
        Jupiter Icy Moons Orbiter.

  <bullet> FY02--Competitively awarded 2 electric propulsion technology 
        research contracts (NASA Glenn Research Center, Jet Propulsion 
        Laboratory).

  <bullet> FY03--Completed candidate reactor concept screening and 
        conceptual design data packages for reactor concepts.

  <bullet> FY03--Initiated technology research, development, and 
        testing of a broad range of technologies for multi-mission JIMO 
        spacecraft.

  <bullet> FY03--Completed preliminary development-thruster unit design 
        of the High Power Electric Propulsion (HiPEP--NASA Glenn 
        Research Center) and Nuclear Electric Xenon Ion System (NEXIS--
        Jet Propulsion Laboratory) electric propulsion ion thruster 
        systems.

  <bullet> FY03--Initiated high-temperature materials and nuclear 
        safety studies.

  <bullet> FY04--Commissioned rhenium nuclear criticality benchmark 
        measurements.

  <bullet> FY04-Conducted integrated ion thruster test with 2 kWe 
        Brayton power converter at NASA Glenn Research Center.

  <bullet> FY04--Demonstrated first ion beam extraction and operation 
        of NEXIS and HiPEP thrusters at power levels from 5-10 times 
        greater and propellant efficiencies (i.e., specific impulse) 
        more than twice that of NASA's Deep Space 1 ion engine.
1) Multi-mission Power Conversion Research
    Objective: Research and develop multiple high power (20-50 kWe) 
thermal-to-electrical conversion technologies for nuclear electric 
propulsion applications.

    Milestones:

  <bullet> FY06--Complete component level tests on Brayton and heritage 
        thermoelectric systems.

  <bullet> FY07--Complete Engineering Units for each system.
2) Multi-mission Electric Propulsion Research
    Objective: Research and develop multiple high-power (20-50 kWe) 
electric propulsion technologies for nuclear electric propulsion 
applications.

    Milestones:

  <bullet> FY05--Complete component level tests on NEXIS and HiPEP 
        technologies.

  <bullet> FY06--Complete Engineering Unit on NEXIS and HiPEP 
        technologies.
3) Multi-mission Nuclear Fission Reactor Research
    Objective: Research reactor power systems suitable for planetary 
science applications and support development of test facilities, 
autonomous systems, and reactor fuel.
    Milestones:
    To be established by Department of Energy reactor developer.
Advanced Space Nuclear Power and Propulsion Technology Research
Objective
    Study and develop advanced, large-scale space nuclear power and 
propulsion technologies that would enable more advanced. ambitious 
missions (both robotic and human) not possible with the space nuclear 
power and propulsion technologies developed for the first flight 
missions enabled by nuclear electric propulsion.

  <bullet> Build upon technology developed for JIMO and follow-on 
        missions to develop power and propulsion systems with the 
        performance necessary for piloted vehicles to Mars and for 
        other advanced exploration missions.

  <bullet> Initial activities are geared towards development of 
        surface-based power systems for robotic, human habitat, and in-
        situ resource utilization, and high-power in space propulsion 
        systems that best exploit the potential of nuclear energy to 
        expand our capacity to explore the solar system and beyond

    This program element is comprised of the following four activities:

  1)  Advanced Electric Propulsion Research

  2)  Advanced Power Conversion Research

  3)  Advanced Fission Reactor Research

  4)  Advanced Nuclear Systems Concepts and Mission/Systems Analyses
Accomplishments Through March 31, 2004
  <bullet> FY02--Competitively awarded 3 reactor power conversion 
        technology research contracts (Boeing, Jet Propulsion 
        Laboratory, Department of Energy's Oak Ridge National 
        Laboratory).

  <bullet> FY02-Competitively selected one electric propulsion 
        technology research contract (Stanford University)

  <bullet> FY04--Issued Advanced Electric Propulsion NASA Research 
        Announcement.

  <bullet> FY04--Issued Critical Issues in Electric Propulsion NASA 
        Research Announcement.

  <bullet> FY04--Conducted a workshop on past experiences with nuclear 
        thermal propulsion.

  <bullet> FY04--Created Team Prometheus mission analysis group to 
        study robotic, surface power, human exploration, and sample 
        return mission types.

  <bullet> FY04--Completed design and fabrication of new high power (50 
        kWe) ``400M'' Hall thruster at Glenn Research Center.
1) Advanced Propulsion (EP) Research
    Objective: Research and develop multiple advanced in-space 
propulsion technologies to include multi-megawatt nuclear electric and 
nuclear thermal propulsion.

    Milestones:

  <bullet> FY04--Select multiple technologies for near-term development 
        through Advanced Electric Propulsion NASA Research Announcement 
        process.

  <bullet> FY04--Place contract, through Stanford University, for 
        analysis of Hall thruster system.

  <bullet> FY06--Complete component tests and evaluations of Hall 
        thruster system.

  <bullet> FY07--Complete component tests and evaluations for advanced 
        electric propulsion concepts developed under Advanced NASA 
        Research Announcement.

  <bullet> FY09--Complete Engineering Unit tests and evaluations for 
        promising alternate/advanced electric propulsion systems.
2) Advanced Power Conversion Research
    Objective: Research and develop multiple high power thermal-to-
electrical conversion technologies that would advance state-of-the-art 
technologies (factor of 2 to 5 improvements in converter reliability, 
lifetimes, power levels, and overall efficiency) in support of future 
nuclear electric propulsion and surface power applications.

    Milestones:

  <bullet> FY05--Complete component level tests on Brayton and Rankine 
        dynamic power cycles, and the static segmented thermoelectric 
        system

  <bullet> FY06--Complete Engineering Units for each system

  <bullet> FY09--Complete Engineering Unit tests and evaluations for 
        advanced power conversion systems
3) Advanced Fission Reactor Research
    Objective: Research reactor fuels and power systems of a high power 
level suitable for human and advanced robotic applications and support 
development of test facilities and autonomous systems for these 
applications.

    Milestones:

  <bullet> FY04--Identify candidate nuclear fuels for human and 
        advanced robotic applications.

  <bullet> FY05--Formulate a test plan for advanced nuclear fuels. 
        Engage DOE to insure facilities are ready/refurbished for fuel 
        development efforts.

  <bullet> FY06-08--Begin development of high temperature candidate 
        reactor fuels for human and advanced robotic applications.

  <bullet> FY06-08--Begin development of surface power reactor for 
        Lunar and Mars applications.
4) Advanced Nuclear Systems Concepts and Mission/Systems Analyses
    Objective: Conduct mission and system analyses to identify human 
and advanced robotic applications that will benefit from or require 
Project Prometheus technologies, to identify gaps in current technology 
investments, and to guide future investments in advanced technologies.

    Milestones:

  <bullet> FY04-05--Complete missions studies to identify critical 
        issues in piloted nuclear propulsion and nuclear surface power.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Ernest F. Hollings to 
                           Hon. Sean O'Keefe
    Recent NASA decisions related to using the Space Shuttle for future 
missions suggest that NASA now considers the vehicle to have inherently 
unsafe properties. This is not consistent with the views expressed by 
the Columbia Accident Investigation Board (CAIB) and contrary to the 
Committee's understanding.

    Question 1. Does NASA now consider that some attributes of the 
vehicle or its operational regime are inherently unsafe?
    Answer. As the loss of Columbia and her crew has reminded us, 
working in space is inherently risky. The CAIB recognized the risks 
associated with operating the Space Shuttle and made its 
recommendations consistent with the overriding objective of safety. 
NASA recognizes these risks and is working to mitigate them as best as 
possible through our Return to Flight effort, which is guided by the 
CAIB recommendations. Recent decisions on how to best utilize the Space 
Shuttle were made in light of NASA's intent to mitigate the risk 
associated with potential future missions.

    Question 2. CAIB Chair Admiral Harold Gehman has stated that 
``Almost all the risk is concentrated in the front and back of the 
mission, where one goes on orbit makes little difference.'' How and why 
does NASA's view differ?
    Answer. While dynamic loading on the Orbiter is greatest during 
launch and reentry, problems arising from component functional 
failures, system conditional events, and damage from external impacts 
can occur at any time during a Shuttle flight. NASA is committed to 
providing future crews with the tools necessary to mitigate risk, 
including the ability to check for potential damage to the Orbiter, to 
repair damage to the tiles or the Reinforce Carbon-Carbon (RCC) panels 
and to mount a rescue mission to return the astronauts safely to Earth. 
On the basis of risk, NASA has decided to fly Shuttle missions only to 
the International Space Station (ISS).
    In the past, Space Shuttles have routinely docked with the ISS; the 
ISS crew is well trained in the Soyuz evacuation procedures. These 
represent the normal operations mode supported by extensive training, 
analysis and documentation. A rescue from the ISS, with multiple 
hatches, airlocks, and at least one other vehicle available (Soyuz), is 
much less complex and risky than that required by a stranded Space 
Shuttle being rescued by a second Space Shuttle.
    In an emergency situation, the ISS is capable of providing a ``safe 
haven'' for a Shuttle crew of seven astronauts for up to ninety days. 
This window provides enough time to consider all options, determine the 
best course of action, take the time required to understand the cause 
of the failure and affect repairs, or send the appropriate rescue 
vehicle with the right equipment to bring the crew home.
    No other location in space provides the same capabilities as the 
ISS. Missions to other destinations have significantly shorter stay 
times on orbit due to the limited stores of crew life support 
consumables available on the Orbiter. In response to a question by the 
Columbia Accident Investigation Board, NASA analyzed a hypothetical 
rescue mission between two Space Shuttles and found that the effort 
would have required many unproven techniques, such as emergency free-
space crew transfer in space suits while performing Space Shuttle to 
Space Shuttle station-keeping. These major safety risks are not 
incurred during rescue from the ISS.

    Question 3. How will the Shuttle's safety attributes be defined and 
captured for future vehicle and mission management?
    Answer. The Shuttle's safety attributes are assessed by hazard 
analyses that are done by the prime contractor and approved by NASA's 
independent System Safety Review Panel. Hazard mitigating controls will 
be defined and/or re-verified for all catastrophic hazards prior to 
return to flight.

    Question 4. For example, will this analysis be conducted as a risk 
analysis by NASA's Independent Technical Engineering Authority?
    Answer. The analysis will be conducted by the prime contractor with 
functional oversight by matrix support resources provided by the NASA 
Safety and Mission Assurance (SMA) organizations at the various 
centers. The Shuttle Program's safety review panels are being 
transferred from the Program to the Center SMA organizations as a 
function that will be provided by the Center SMA organization in their 
independent technical authority (ITA) role. The SMA organization's 
safety review panel will exert its formal approval authority for all 
hazard reports as a prerequisite for Program approval of same. Also 
acting independently from the control of the program, both the Center's 
engineering and safety and mission assurance organizations (acting in 
their independent technical authority roles) will be performing safety 
assessments, both process and technical, to assure the safety of 
decisions made by the program.

    Question 5. What is NASA's current thinking about how Shuttle 
safety will be managed?
    Answer. NASA has not finalized an approach to how Shuttle safety 
will be managed, and will not finalize an approach until the Stafford-
Covey Return to Flight Task Group certifies that NASA's approach 
addresses the recommendations of the Columbia Accident Investigation 
Board. NASA's current approach is that the Associate Administrator for 
the Office of Space Flight and his direct reporting Deputy Associate 
Administrator (ISS & Space Shuttle) and his Program Manager for the 
Space Shuttle will remain responsible and accountable to the 
Administrator of NASA for the safety and mission success of the Shuttle 
within the limits of their technical authority. Toward that end, the 
Program Manager has established an SMA Office headed by an SMA Manager 
and assigned a few staff. This Program SMA Manager will integrate the 
activities of safety professionals that are assigned as direct matrix 
support to the program from resources that report directly to the 
Center's SMA Directors. This direct matrix support will enable the 
Program Manager to gather the right kinds of information that will 
assist him in making day-to-day decisions having any safety impact. The 
Center SMA Director will also employ resources that are not in a direct 
support role but in a role of independent assessment and review and 
approval of increased risk where hazards cannot be either eliminated or 
otherwise mitigated. This role is known as the independent technical 
authority role of the SMA Director and is a check and balance for the 
decisions on risk that are presented for Program Manager's decision.
    These critical checks and balances at the Program level are further 
augmented by several independent services provided by the Associate 
Administrator for Safety and Mission Assurance. These services include 
the technical engineering assessments and testing that are provided by 
the NASA Engineering and Safety Center (NESC), an Office of Safety and 
Mission Assurance organization located at Langley Research Center and 
the process-oriented audits (known as process verifications) performed 
directly by the Office of Safety and Mission Assurance (OSMA) 
organization located at Headquarters.
    In general, the Associate Administrator, Office of Safety and 
Mission Assurance oversees all the assurance activities that integrate 
to support safety, reliability and quality for all NASA programs. This 
includes the activities of the contractor, the NASA program managers, 
any matrix direct support to the program, the independent technical 
authority role of the SMA organizations, and the Agency policy for 
safety and mission success and audits to assure conformance to the 
policy.

    Question 6. What is NASA's current projection of the probability of 
loss of Shuttle vehicle and crew? Which office at NASA is now 
responsible for that prediction and is review of this prediction a part 
of the evaluation being conducted by the Return-to-Flight Task Group?
    Answer. The Space Shuttle Safety and Mission Assurance Office, 
based at the Johnson Space Center, has been tasked by the Space Shuttle 
program to conduct a probabilistic risk assessment (PRA) of this issue. 
This office is in the process of completing the PRA in the October/
November 2004 timeframe. The PRA is currently under review by an 
independent peer review team. The Return-to-Flight Task Group will not 
review the PRA as part of its evaluation.

    Question 7. The National Academy of Science's National Research 
Council has been asked to analyze NASA's decision not to fly the fourth 
Hubble Servicing Mission. How does NASA intend to use the academy's 
work?
    Answer. NASA asked the National Research Council for assistance in 
``ensuring that we have fully considered all reasonable alternatives'' 
in extending the operational lifetime of the Hubble Space Telescope. 
(Letter of Request Enclosure 1) We intend to use their world-renowned 
expertise in guiding our decision on the best method/methods available 
to extending the life of the Hubble Space Telescope, while keeping 
fully in line with all current safety guidelines.

    Question 8. In its report and in subsequent public comments and 
testimony, the CAIB emphasized that there was a lack of sustained 
government commitment over the past decade to improve U.S. access to 
space. The CAIB addressed this concern about general U.S. space 
transportation needs as a matter separate from the agency need for a 
high priority mission.
    Please describe how and if the new Space Exploration Vision will 
address the need for improved access for humans to low-Earth orbit.
    Answer. The Vision for Space Exploration expands human presence 
beyond low-Earth orbit. A significant element of the architecture for 
human exploration is safe, reliable, and affordable access to space. 
NASA is currently developing transportation architectures and concepts 
of operations that will generate requirements for the Crew Exploration 
Vehicle (CEV) and its supporting elements including the launch 
vehicle(s).

    Question 9. How much funding is contained in the run-out of NASA's 
FY 2005 budget request for new Advanced Space Transportation solutions 
other than those funds reserved for the Crew Exploration Vehicle (CEV)?
    Answer. Specific funding for advanced space transportation 
activities is not yet identified. NASA is currently developing 
transportation architectures and concepts of operations that will 
generate requirements for the Crew Exploration Vehicle (CEV) and 
supporting elements for the launch vehicle(s).

    Question 10. Please identify how NASA plans to support U.S. 
Advanced Space Transportation will benefit national security and the 
development of new commercial launch technology systems.
    Answer. A strong space transportation capability is critical to 
meeting both national security and civil access to space objectives. 
The civil and national security communities often rely on common launch 
systems to assure access to space.
    NASA is currently in the process of identifying the level 1 
requirements for implementing the Nation's Vision for Space 
Exploration. These requirements are derived from architectural models 
under consideration for returning to the moon and the associated 
concepts of operation As NASA's requirements evolve, we anticipate that 
heavier launch capability and investments in key areas of space 
transportation technology may be required to implement the national 
Space Exploration Vision. The agency will solicit ideas and 
capabilities from industry (and from universities) to meet these still 
evolving requirements. In addition, NASA is working with the national 
security community to understand our respective requirements and pursue 
technology investments in a coordinated manner in space transportation 
that provides the Nation a more viable commercial space industrial base
    The Vision for Space Exploration calls on NASA to ``pursue 
commercial opportunities for providing transportation and other 
services (crew and cargo) supporting the International Space Station 
and exploration missions beyond low Earth orbit.'' NASA will pursue 
commercially available launch services and other potential commercial 
services to support the end-to-end concept of operations, consistent 
with specific mission requirements and space transportation guidelines.
    Additionally, NASA will pursue opportunities for appropriate 
commercial technology transfers, through established licensing and 
other mechanisms, to foster the development of commercial launch 
systems that can further enhance the national security and industrial 
base.

    Question 11. The President's Vision says we will return to the Moon 
sometime between 2015-2020. Why such a long window?
    Answer. The 2015-2020 window for a human lunar exploration mission 
allows NASA to develop the requirements for returning to the Moon 
focused on the overall vision of a sustained, affordable exploration of 
Mars and beyond. The window also provides flexibility to incorporate 
critical precursor information from robotic missions to the moon, thus 
enabling an efficient approach to human missions.

    Question 12. What are the major elements that keep us from arriving 
on the earlier date?
    Answer. NASA is committed to realizing the Vision for Space 
Exploration without a significant increase in NASA's budget. NASA will 
develop the capability for human exploration within the budget through 
a spiral development approach that develops sound requirements within 
known mission objectives and evolves the requirements for future 
mission objectives. This spiral process of requirements and the 
development of capabilities will form the foundation for human missions 
to the Moon that support sustainable, science driven exploration of 
Mars and beyond.

    Question 13. The President's Vision says we will conduct missions 
on the Lunar Surface for extended periods after we have arrived. Could 
you describe what some of those activities might be? Will our emphasis 
be science or mineral exploitation of the Moon?
    Answer. In its Vision for Space Exploration dated February 2004, 
NASA has stated a basic requirement to ``conduct a series of robotic 
missions to the Moon to prepare for and support future human 
exploration activities.'' Another basic requirement states that NASA 
will conduct human lunar expeditions ``to further science, and to 
develop and test new exploration approaches, technologies, and systems, 
including the use of lunar and other space resources to support 
sustained human space exploration to Mars and other destinations.'' 
Activities on the lunar surface will be defined within the requirements 
for exploration missions and as part of the concept of operations.

    Question 14. Are there international treaties that stand in our way 
if we pursue mineral exploitation?
    Answer. The primary purpose of going to the Moon in the Vision for 
Space Exploration is to use lunar activities as a stepping stone to 
Mars and other destinations, testing technologies and concepts for use 
beyond the Moon. In addition, lunar exploration activities will be used 
to further science and to begin the extension of human presence across 
the solar system. Exploitation of lunar resources, if such resources 
are discovered and recoverable, may raise legal issues that the Nation 
may need to address at an appropriate time.

    Question 15. Is it implicit in NASA's proposals that the 
President's new Space Exploration Vision will result in safer travel 
and operations in space? Are travel to and operations at the Moon safer 
than entering low-Earth orbit? Please describe the concept of 
operations that will be used to mitigate the risks inherent to low 
Earth orbit staging and deep space travel and operation.
    Answer. In its Vision for Space Exploration dated February 2004, 
NASA has stated a basic requirement to safely ``implement a, sustained, 
and affordable robotic and human program to explore and extend the 
human presence across the solar system and beyond.'' One basic 
objective to accomplish safe operations is to separate crew from cargo 
for launches of exploration missions to the maximum extent practical. 
This is a safer approach to crew transport. Safety will be incorporated 
within all phases of the exploration missions, beginning with the 
development of sound requirements. This process integrates only mature, 
demonstrated systems into the design of each spiral. Future spirals 
will be supported by a strong, ongoing technology maturation process to 
increase capability and improve safety and affordability.

    Question 16. If future access to space will rely on commercial 
launch systems, what levels of reliability will need to be met to 
significantly increase crew safety? Please describe the types of 
efforts that will be required to achieve these heightened levels of 
reliability and safety.
    Answer. Current commercial launch systems will be assessed against 
the NASA Human-Rating Requirements and Guidelines for Space Flight 
Systems (NPR 8705.2) and must comply with specific aerospace design 
standards, design criteria for human space flight, flight test, crew 
survival systems, and safety and reliability processes.

    Question 17. It appears that the U.S. intends to rely on the 
Russian Soyuz vehicle for crew transfer and return for a period of 
years. How and why is that a safer approach than simply continuing to 
use the Space Shuttle to meet these requirements?
    Answer. NASA has significant interaction with the Russian Federal 
Space Agency (FKA) and the vehicle manufacturer (RSC-Energia) regarding 
safety of the Soyuz vehicles. On the basis of this interaction and the 
historical record of Soyuz and Soyuz-derived vehicle performance, NASA 
is confident that the Soyuz is among the safest spacecraft ever flown.
    Each Soyuz spacecraft is operated within the design, certification 
and experience of our Russian partners. Under the provisions of the 
Memorandum of Understanding (MOU) between NASA and Rosaviakosmos (now 
FKA) concerning cooperation on the International Space Station (Article 
10.2), FKA is responsible for meeting or exceeding the overall Space 
Station safety and mission assurance requirements and plans established 
by NASA and the Partnership. Article 10.2 of the MOU states: ``In 
support of NASA's overall responsibilities to assure safety and mission 
assurance, FKA will be responsible for certifying that the Russian 
Segment and the FKA-provided elements, including cargo, are safe and 
ready for operation using jointly agreed documentation and processes.'' 
The Soyuz has been certified under these conditions.
    In addition, each Soyuz mission undergoes a number of joint Russian 
and U.S. expert reviews. Prior to each mission the U.S.-Russian 
Stafford-Anfimov Joint Commission conducts an in-depth joint assessment 
of the operational readiness of the mission. The resulting report is 
one of the inputs to the detailed NASA technical reviews that culminate 
in a Flight Readiness Review for each mission.
    The certification under the MOU, our technical and safety history 
with Soyuz vehicles and current processes for joint Station operations 
combine to ensure the safety of future use of Soyuz.

    Question 18. Why was the Orbital Space Plane cancelled? Why 
couldn't the CEV have been accomplished through spiral development of 
the Orbital Space Plane, thereby resolving both immediate and long-term 
NASA needs for crewed space transportation?
    Answer. The spiral development process is initiated with the 
development of requirements that are consistent with the concept of 
operations defined by the known mission. The Orbital Space Plane 
requirements were not developed to support the Vision for Space 
Exploration, but for a significantly different purpose.

    Question 19. Will the CEV be used as the Crew Rescue Vehicle for 
Space Station? If not, is that mission going to be accomplished by the 
Russians; and have the Russians agreed to provide that capability 
indefinitely?
    Answer. The design of the CEV will be driven by the needs of the 
future human exploration missions, but it might also supplement 
potential commercial and international partner transport systems to the 
Space Station. Requirements for the CEV are in development, with a 
draft release planned for September.

    Question 20. Materials submitted by NASA as back-up to the ``sand 
chart'' indicate that spending on NASA Human Exploration Missions will 
not begin until FY 2011, several years after the current change in 
NASA's direction. Given the importance of responding to the Nation's 
urgent call for redirecting Human Space Flight, this seems like a 
significant period of delay in achieving renewal. Please describe why 
NASA chose to maintain the full, final configuration of the 
International Space Station (ISS).
    Are there any additional de-scope options for ISS assembly that 
would contribute additional funds to an early start of new Human 
Exploration Missions?
    Answer. A final decision on the ISS configuration has not yet been 
established. NASA is currently involved in detailed technical 
discussions with its international partners to establish the ISS 
configuration. Guiding principles for NASA in the ongoing technical 
discussions with the partners are the new U.S. Vision for Space 
Exploration, which states that the U.S. will complete assembly of the 
ISS, conduct ISS activities in a manner consistent with U.S. 
obligations contained in the agreements between the U.S. and other ISS 
partners and that NASA will focus its research activities on ISS to 
support U.S. exploration goals. It is anticipated that a proposed ISS 
configuration which meets each of these principles will be presented to 
the ISS Heads of Agency for approval in late July. Given the maturity 
of U.S. flight hardware developed for ISS it is unlikely that any 
significant savings would be realized for exploration by a descoping of 
planned U.S. contributions to ISS.
    All of the ISS Partners recognize that there are implications for 
the ISS program as a result of the temporary grounding of the Space 
Shuttle fleet and the announcement of the Vision for Space Exploration. 
NASA has been and continues to be engaged in a discussion of these 
issues with our Partners. There is much detailed work yet to be done at 
the technical coordination level to ascertain the impacts of these 
changes on the ISS Program. Such discussions have included concerns 
about extended lifetimes for components now on-orbit, ensuring a proper 
return from modules that will be delivered later in the assembly 
sequence, and determining the final on-orbit configuration of the ISS 
for utilization of the ISS through at least 2016.
    As agreed during the December 11, 2003 Multilateral Coordination 
Board (MCB) telecon, the MCB met in Washington on February 12, 2004. 
This was the first meeting of the MCB after the announcement of the 
Vision for Space Exploration. NASA used this opportunity to brief the 
ISS Partnership on implications of the Vision for the ISS program and 
the methods by which the Vision will be implemented. The MCB agreed 
that the Vision for Space Exploration helped to satisfactorily resolve 
some of the issues under discussion about the ISS configuration, but 
the planned retirement of the Shuttle raised a number of new questions. 
To address these issues in a comprehensive manner, the MCB assigned a 
multilateral team to define an ISS configuration and implementation 
framework. The MCB received a status report on this work at their late-
June meeting. The Partners are expecting to hold an ISS Heads of Agency 
meeting in late July frame.

    Question 21. Please explain why additional Human Space Flight 
economies needed to most quickly achieve renewal is not an option.
    Answer. Consistent with the Vision for Space Exploration, NASA is 
committed to returning the Space Shuttle to safe flight as soon as 
practical, based on the recommendations of the Columbia Accident 
Investigation Board. The Space Shuttle will be utilized to complete 
assembly of the International Space Station (ISS), planned for the end 
of the decade, at which point the Shuttle fleet will be retired.
    In the broad context of the Vision, the ISS will be utilized 
through at least 2016. It will serve as a test bed for the scientific 
and technical research and development needed to fulfill the objectives 
of the Vision. NASA will continue the operation and maintenance of the 
ISS so long as it benefits the long-term future of human space flight. 
The ISS is an integral part of the stepping-stone approach to the 
exploration goals articulated by President Bush. The future of the ISS 
will be fully coordinated with our International Partners in accordance 
with our ISS agreements.
    Pending Congressional approval, spending on Human Exploration 
Missions will begin well before 2011. Significant funding for the 
future Crew Exploration Vehicle, including design studies and related 
technology development, is included in NASA's FY 2005 Budget request. A 
total of nearly $1.8 billion in FY 2005 funds is requested for the 
Exploration Systems Enterprise (beginning on 8/1/04, this activity will 
be referred to as the Exploration Systems Directorate), which has a 
lead role in implementing the Vision for Space Exploration.
    NASA is responsibly budgeting the taxpayer's money in the near-term 
and planning for the longer-term, in order to achieve the Vision for 
Space Exploration as efficiently and effectively as possible. Diverting 
the Space Flight funding prior to safely returning the Space Shuttle to 
flight and completing assembly of the ISS would impact NASA's 
deliberate stepping-stone approach to successfully achieving the Vision 
for Space Exploration.

    Question 22. At any time during the past year, did discussions 
between the U.S. and the International Partners address possible de-
scoping of the ISS assembly configuration? If so, please describe the 
options presented and discussed, and the response of the partners to 
those options.
    Answer. The Vision for Space Exploration states that NASA will 
complete assembly of the ISS, including the U.S. components that 
support U.S. space exploration goals and those provided by foreign 
partners, planned for the end of the decade. Completing assembly of the 
ISS by the end of the decade may require changes to the final 
configuration of the ISS. It is not clear whether those configuration 
changes might affect international components. The Vision for Space 
Exploration directs NASA to conduct ISS activities in a manner 
consistent with U.S. obligations contained in the agreements between 
the United States and other ISS partners. Although NASA has on-going 
discussions with the partners regarding ISS configurations, NASA has 
not to date discussed de-scoping the ISS in partner meetings.

    Question 23. If the President's time-line is followed, there is 
likely to be a significant hiatus between the last Shuttle flight and 
the first flight of the new CEV. During the same period, it is likely 
that legacy NASA and industry aerospace workers will have retired or 
have been laid off from current operations assignments for a period of 
years. What is NASA's plan to ensure that when a new NASA and industry 
operations workforce is needed to operate CEV, they will be available?
    Answer. To support the Vision for Space Exploration, an assessment 
of capabilities throughout NASA is being conducted. The objective is to 
determine how these capabilities map to the skill requirements for the 
Vision. A trained and skilled workforce, on both the NASA and industry 
side, is important to ensuring the success of operating the CEV. The 
Agency will ensure that the necessary skills for operating the CEV are 
in place when required.

    Question 24. By terminating the Space Shuttle in 2010, NASA can 
avoid the cost of re-certification, a requirement levied on NASA by the 
CAIB. However, it is possible that NASA may need to continue using the 
Space Shuttle beyond that date in order to complete assembly of the 
International Space Station. NASA has advised the Committee that 
something less than a full structural and mechanical recertification 
and test of the Space Shuttle may be adequate to meet the CAIB 
recommendation or to operate the Shuttle after 2010. What does NASA 
estimate the cost of Shuttle re-certification to be?
    Please describe the ``lesser standard'' that might be substituted 
for the recommendation of the CAIB.
    Answer. NASA is currently reassessing the ISS assembly sequence to 
ensure that the Shuttle can be safely retired following assembly of the 
International Space Station. To prepare for the contingency that the 
Shuttle may need to operate beyond 2010, NASA is reassessing the need 
to recertify Space Shuttle systems, subsystems, or components 
consistent with the Vision for Space Exploration and in line with the 
recommendations of the Columbia Accident Investigation Board. The 
technical work required to determine what recertification would entail 
will continue into summer 2004. Once the technical definition of the 
recertification tasks is completed, cost estimates on the items we may 
need to recertify will be developed and made available for discussion.

    Question 25. Please describe the process NASA used to (1) assign 
priorities to enterprises and programs and (2) select missions to be 
deferred or cancelled. Why were Earth Science, High-Energy and 
Relativity Physics and Solar Physics deemphasized in NASA's current 
budget request?
    Answer. The NASA budget process evaluated and selected programs 
with respect to four key principles:

        Compelling--The programs fully support the Vision for U.S. 
        Space Exploration or provide for ongoing NASA mission 
        priorities such as Aeronautics and Earth Science in accordance 
        with the NASA Strategic Plan.

        Affordable--The programs are part of a budget that is fiscally 
        responsible and consistent with the Administration's goal of 
        cutting the Federal deficit in half within the next 5 years.

        Achievable--The programs will not require large balloon 
        payments by future Congresses and Administrations.

        Focused--The Vision for Space Exploration provides the needed 
        compass with which to evaluate our programs and make the 
        required tough decisions.

    Earth science and space physics remain priorities for NASA. 
Although some new projects were postponed, NASA's 5-year budget request 
for Earth Science is about $1.4 billion annually, representing a 
significant Administration priority. NASA remains the largest Federal 
contributor to the Climate Change Research Initiative. Approximately 40 
percent of the FY 2005 Earth Science budget will go towards research on 
data from 80 sensors supported by NASA's 18 Earth-observing satellites. 
NPOESS Preparatory Project (NPP), used to harness NASA satellite data 
for global climate change observations, increased funding by 36 percent 
for FY 2005. The Orbiting Carbon Observatory (OCO), which relies on 
space-based platforms to measure atmospheric levels of carbon dioxide 
that generate data for the enforcement of emissions standards, was 
increased by 37 percent in FY 2005.
    NASA's budget for Structure and Evolution of the Universe averages 
$400 million annually over the next 5 years. The budget for Sun-Earth 
Connection ramps up to $1 billion over the next 5 years. While some 
previously planned work has been deferred, these activities remain 
significant strategic objectives of the Agency.

    Question 26. If NASA were directed to assume sustained, level 
funding from FY 2004 to FY 2005, including Congressional directed 
funding, please describe how existing and new NASA programs would be 
affected.
    Answer. A freeze at the FY 2004 appropriation level would 
jeopardize many important activities:

  <bullet> Level funding would reduce Space Shuttle by $374 million, 
        jeopardizing efforts to safely return to flight and continue 
        assembly and operations of the International Space Station,

  <bullet> Level funding would reduce Space Station by $365 million, 
        eliminating new funding for crew & cargo services and draining 
        needed reserves,

  <bullet> Level funding would reduce Exploration Systems by $136 
        million, slowing or eliminating investments in key technologies 
        needed to support exploration of the Solar System and beyond,

    Without the requested increase for FY 2005, NASA will still need to 
provide increased funding to meet priorities for return to flight of 
the Space Shuttle and assembly of the International Space Station. This 
will require substantial offsets from other ongoing activities as 
funding sources. Inclusion of Congressionally directed funding from the 
FY 2004 appropriation would exacerbate this situation, and require 
additional offsets from other ongoing activities.

    Question 27. The CAIB recommended there be a ``detailed plan for 
defining, establishing, transitioning, and implementing an independent 
Technical Engineering Authority'' prior to the Shuttle's return-to-
flight. When does NASA anticipate that plan will be available for 
external review?
    Answer. NASA has expanded the Columbia Accident Investigation Board 
(CAIB) recommendation 7.5-1 on ``independent technical engineering 
authority (ITEA)'' to include both the engineering authority and the 
safety and mission assurance authority into one broader authority and 
called the expanded authority the independent technical authority 
(ITA). We anticipate that the plan being developed for implementing an 
independent technical authority to be ready for additional external 
review sometime in the summer of 2004. The plan will be provided first 
to the Stafford-Covey Return to Flight Task Group for assessment and 
advice to NASA prior to broader external review.

    Question 28. Please identify the amount of funding for this new 
Authority contained in the current budget request and FY 2004 Operating 
Plan.
    Answer. There is no special funding consideration for the ITA in 
the FY 2004 Operating Plan as the concept will first be addressed and 
funded as a directed service pool beginning in FY 2005 (October 1, 
2004). The funding level for the service pool is at the present time 
yet to be determined.

    Question 29. The Committee requested a breakout of NASA funding by 
Center and Budget Line Item for FY 2005. According to NASA, that 
information is not available due to new budgeting procedures premised 
on the ``One NASA'' concept. Why is the Integrated Financial Management 
Program (IFMP) unable to provide this type of information? Will IFMP 
ever be able to provide this type of information? If so, when?
    Answer. For budgetary data reporting, the agency-wide IFMP's Budget 
Formulation module (BF) is still on schedule for initial deployment in 
the first quarter of FY 2005. Reports by Center and BLI, reflecting our 
new budgetary procedures will be available shortly afterwards (once the 
BF module is ``populated'' with the budgetary data from all Centers and 
programs).
    For execution data reporting, the conversion to Full Cost 
accounting and reporting which came into effect in October 2003 (for FY 
2004) has required several policy changes and updates related to the 
detailed identification, treatment and allocation of indirect cost 
items such as General and Administrative (G&A) expenses and Service 
Pools allocations. Those changes had to be reflected in the new reports 
generated out of the IFMP's Core Financials module. Definition and 
production of those report formats started as soon as our policy was 
set in late September 2003 and several reports are now produced 
reflecting those policies.

    Question 30. Please describe the schedule for continued roll-out of 
the IFMP, including an estimated date of completion for all core 
modules and Center core and project management systems. Also describe 
the agency's plans for implementation of electronic contractor cost and 
performance management reports for all NASA programs.
    Answer. See Enclosure 2 for IFMP rollout schedule including an 
estimated date of completion for all core modules and Center core and 
project management systems. Center rollout for Core Financials module 
took place as scheduled and on budget during the fourth quarter of FY 
2003. Starting with the first quarter of FY 2004, all Centers were 
operating on the Core Financials module as planned. As customary in 
this type of large deployment, a significant amount of post-
implementation historical data cleanup activities were involved in the 
``stabilization'' period. This data integrity task, as anticipated, is 
still on-going as part of our forthcoming FY 2004 audit preparation 
effort.
    The IFMP's Integrated Asset Management project includes the 
development and implementation of electronic cost and performance 
management metrics by 2007 including Earned Value Management 
functionality.
                                 ______
                                 
                              Enclosure 1
 National Aeronautics and Space Administration Headquarters
                                     Washington, DC, March 17, 2004

Reply to Attn of:

Dr. Bruce Alberts,
Office of the Chairman,
National Research Council,
Washington, DC.

Dear Dr. Alberts:

    As you know, the mission of the Hubble Space Telescope has been one 
of the most productive scientific undertakings of all time. One of our 
principal concerns today is finding the best way to extend the lifetime 
of this national asset. I would like to ask for the assistance of the 
National Research Council in ensuring that we have fully considered all 
reasonable alternatives to this objective. The assessment should 
address the following issues:

  1.  Assess the viability of a Shuttle servicing mission to the Hubble 
        that satisfies all CAIB recommendations, as well as any 
        additional ones identified by NASA's ongoing Return to Flight 
        activities. Estimate to the best extent possible the time and 
        resources needed to overcome any unique technical or safety 
        issues associated with Hubble servicing that are required to 
        meet the recommendations of CAIB, as well as ongoing Stafford-
        Covey RTF activities. Enclosed is a white paper describing 
        these activities.

  2.  Survey other engineering options available for Hubble servicing 
        that could extend the lifetime of the Hubble. This would 
        include both robotic intervention on-orbit and optimization of 
        ground operations.

  3.  Assess the response of the spacecraft to likely major component 
        failures, and the resulting impact on servicing feasibility, 
        lost science, and the ability to safely dispose of Hubble at 
        the end of its service life.

  4.  Based upon the results of assessments carried out in paragraphs 1 
        through 3, assess the entire gain/risk equation of whether 
        extension of the Hubble service life is worth the risks 
        involved, including a Shuttle servicing mission only if such a 
        mission is found viable in satisfying all the recommendations 
        of the CAIB, as well as ongoing Stafford-Covey RTF activities.

    We presently have a study underway at the Goddard Space Flight 
Center, based in part on a public Request for Information, evaluating 
means to extend the Hubble's life; we will be pleased to share the 
results of this activity with you when they become available in about a 
month.
    I would be happy to discuss the scope and schedule of this study 
with you at your earliest convenience.
            Cordially,
                                          Edward J. Weiler,
                         Associate Administrator for Space Science.
Enclosure

cc:
A/Mr. S. O'Keefe
AA/Mr. J. Schumacher
AD/Mr. F. Gregory
AD-2/Mr. G. Martin
ADT/Dr. Greenfield
AS/Dr. J. Grunsfeld
GSFC/100.0/Mr. A. Diaz
Space Studies Board/Mr. J. Alexander
                                 ______
                                 
       Cancellation of the Fifth (SM-4) Hubble Servicing Mission
Executive Summary
    The Hubble Space Telescope (HST) was originally launched aboard the 
Space Shuttle in 1990, with an as designed mission lifetime of 15 
years. Since then the telescope has been serviced or upgraded four 
times, each requiring a very complex, dedicated Space Shuttle mission 
and unique HST servicing support equipment. Even before its repair 
mission in 1993, the HST had generated significant scientific 
discoveries. The science return from HST has already vastly exceeded 
the original expectations.
    NASA plans continued operation of the HST until it can no longer 
support scientific investigations anticipated to occur in the 2007-2008 
time frame. The telescope's life may, in fact, be extended if NASA is 
successful in employing operational techniques to preserve battery and 
gyroscope functions. Meanwhile, NASA is aggressively investigating 
innovative ways to extend the science lifetime of the HST for as long 
as possible, including robotic servicing to provide extension of power 
storage. Current plans are to safely deorbit the HST by a robotic 
spacecraft by approximately 2013.
    Although the HST deployment mission and four subsequent servicing 
missions were successfully conducted, the Columbia tragedy underscored 
the inherent risk in each and every Space Shuttle mission and 
reinforced the need for increased ability to deal with ail potential 
contingencies, particularly catastrophic damage to the Orbiter's 
thermal protection system (TPS).
    Without the benefit of docking at the ISS many new tools, 
processes, and techniques would be required for inspection and possible 
repair of the TPS. More significant would be the requirement to 
dedicate two Space Shuttles to the mission to ensure astronaut safety. 
In the event of a significant problem with no safe haven for the 
astronauts to wait as in ISS missions, a second Shuttle would have to 
be launched and employ untried and uncertified techniques to perform a 
rescue. Hence, a Shuttle based HST servicing mission presents known 
additional risks, and offers few options to respond to serious problems 
in orbit.
    Recognizing the increased risks involved in all Shuttle flights 
following the tragic loss of the Columbia and crew NASA elected to 
reduce its planned Shuttle manifest to only missions to the 
International Space Station (ISS). The decision was also made, on the 
basis of risk, to not pursue a final servicing mission to the HST, but 
instead to investigate other options to extend the life of the Hubble.
Columbia Accident Investigation Board Findings and Impact on Future 
        Missions
    The Columbia Accident Investigation Board presented NASA with 29 
recommendations, 15 of which were required to be completed before the 
Space Shuttle could return to flight. Highlights of these flight-
critical recommendations included elimination of damaging insulation 
shedding from the external tank--the cause of the Columbia tragedy--
ascent imaging, on-orbit inspection, and thermal protection system tile 
and Orbiter leading edge repair. NASA will satisfy all of these 
recommendations before it launches STS-114, the next Shuttle mission. 
The Board stressed that the Space Shuttle is still a developmental 
vehicle and that risk and risk mitigation must be treated accordingly. 
NASA's original vision was to fly the Shuttle to mid-decade or 2020 for 
a total of 75-80 more flights. NASA fully accepts the Board's 
recommendation and balancing mission criticality against possible loss 
of crew and vehicle, consciously decided to retire the Space Shuttle 
after the completion of the International Space Station (ISS), 
recognizing that the best risk mitigation strategy is to fly less.
    In addition, NASA realizes that a ``safe haven'' in space 
capability is required. This ``safe haven'' capability goes beyond 
compliance with the Columbia Accident Investigation Board 
recommendations and is designed to increase crew safety during the 
remaining Space Shuttle missions. Should damage occur to the Shuttle 
thermal protection system that cannot be repaired and that would 
preclude safe reentry, the crew will be able to shelter at the ISS 
until another vehicle can be readied for rescue. Agency policy will 
require each Space Shuttle mission to have backup rescue capability. 
``Safe haven'' is the ultimate recognition that, while NASA will make 
the Space Shuttle as safe as possible, the Columbia tragedy has taught 
us that there are still significant risks inherent in Space Shuttle 
launch, orbit operation, and reentry.
Unique Requirements and Increased Risk in the Hubble Servicing Mission
    Whereas tools, techniques, and procedures would be similar on each 
ISS mission; e.g., inspection, thermal protection system repair, safe 
haven readiness, and rescue scenario, an HST servicing mission would 
have unique requirements, both on-orbit and in ground processing. 
Options for dealing with an on-orbit emergency are reduced and 
decisions for reacting to any emergency would have to be made quickly. 
These two considerations, and the attendant schedule pressure on the 
flight crews and support teams, add considerable additional risk.
Lack of Significant Safe Haven
    The areas of additional risk relate to the ability to provide 
``safe haven'' while inspection, repair and potential rescue are 
undertaken, and to the procedures for inspection and repair themselves. 
It has been projected that a typical Space Shuttle flight crew of seven 
astronauts could stay aboard the ISS for up to ninety days, if 
warranted, due to an emergency situation on the Space Shuttle. This 
safe haven capability allows the flight crew and ground teams to 
consider all options, determine the best course of action, take the 
time required to understand the cause of the failure and affect 
repairs, or send the appropriate rescue vehicle with the right 
equipment to bring the crew home. Clearly, rushing this process would 
introduce considerable new risk and in the worse case result in the 
loss of another vehicle.
    In the case of a Hubble servicing mission, the amount of stay time 
on orbit is significantly shorter due the limited stores of cryogenic 
oxygen on the Orbiter. Therefore, other measures would be required. 
Specifically, a second Space Shuttle on an adjacent launch pad would 
have to be specially prepared, uniquely configured to launch 
expeditiously if required to perform a rescue mission. This scenario 
raises several concerns, addressed in the paragraphs below.
Unprecedented Double Workload for Ground Launch and Processing Teams
    Two vehicles would be processed for essentially the same launch 
date. Any processing delays to one vehicle would require a delay in the 
second vehicle. The launch countdown for the second launch would begin 
before the actual launch of the first vehicle. This short time period 
for assessment is a serious concern--it would require a highly complex 
process to be carried out in parallel, and it would not permit through 
assessment by the launch team, the flight control team, and the flight 
crew.
No Changes to Cargo or Vehicle Feasible
    Because of the very short time-frame between the launch of the 
first vehicle and the requirement for a rescue flight, no significant 
changes could reasonably be made to the second vehicle or the cargo. 
This means that it would not be feasible to change the cargo on the 
second Space Shuttle, to affect a repair to the first Shuttle, add 
additional rescue hardware, or make vehicle modifications to avoid 
whatever situation caused the need for a rescue attempt in the first 
place. Not having sufficient time to make the appropriate changes to 
the rescue vehicle or the cargo could add significant risk to the 
rescue flight crew, or to crew transfer. The whole process would be 
under acute schedule pressure and undoubtedly many safety and 
operations waivers would be required.
Rescue Mission
    Space Shuttles routinely dock with the ISS; Soyuz evacuation 
procedures are well trained. These represent the normal operations mode 
today supported by extensive training, analysis and documentation. A 
rescue from the ISS, with multiple hatches, airlocks, and at least one 
other vehicle available (Soyuz), is much less complex and risky than 
that required by a stranded Space Shuttle being rescued by a second 
Space Shuttle.
    In response to a question by the Columbia Accident Investigation 
Board, NASA analyzed a hypothetical rescue mission between two Space 
Shuttles and found that the effort would have required many unproven 
techniques, such as emergency free-space crew transfer in space suits 
while performing Space Shuttle to Space Shuttle station-keeping while 
traveling 17,500 mile per hour above the earth. These major safety 
risks are not incurred during rescue from the ISS.
The Survey (expanded inspection requirements) and Thermal Protection 
        System 
        Repair
    The current inspection method for acreage tile, gear door seals, 
and the eleven cove is to photograph these areas from the ISS during 
rendezvous. To support an HST servicing mission, NASA would have to 
develop a new method for inspecting these critical areas using an 
Orbiter boom. Unvalidated autonomous boom operations represent an 
unknown risk. NASA's current planned TPS repair method for an ISS-based 
repair uses the ISS robotic arm to stabilize an EVA crew person over 
the worksite. These assets are not available for an HST servicing 
mission, so NASA would have to develop a single-use alternate method 
for stabilizing the crewmember. This method would have to provide 
greater stability than the current ISS option under development to 
protect both the crewmember and the other TPS areas from additional 
damage. Such a concept represents challenging undertaking, which could 
take months or years to develop in order to meet safety and mission 
assurance standards/requirements.
Return to Flight and ISS U.S. Core Complete Timeline
    In the process of addressing the Columbia Accident Investigation 
Board recommendations and implementing additional improvements to 
achieve the safest flight possible, NASA has uncovered a number of 
problems that had previously gone undetected. The removal and 
replacement of unsafe hardware has deferred Space Shuttle launch 
milestones. NASA projects the first opportunity for a Space Shuttle 
launch to the ISS to be in March 2005. Eight flights are scheduled to 
meet our international commitments, the assembly of the U.S. core 
segments of the ISS. Given the ISS assembly schedule, the earliest NASA 
could launch a servicing mission to the HST, based on requirements for 
daylight launch to fully assess ascent conditions by imagery and 
thermal constraints when docked to ISS, would be Spring 2007.
    Based on the evaluation of the engineering data on the HST, the 
lifetime of the Observatory on orbit is ultimately limited by battery 
life, which may extend in to the 2007-2008 timeframe. Scientific 
operations are limited by gyroscope lifetime that is more difficult to 
predict. If all of the NASA effort is concentrated on a Shuttle 
servicing mission, every step in the process must be successful with no 
allowance for schedule slips. Before launch all of the recommendations 
of the Columbia Accident Investigation Board must be met. The launch 
conditions must be perfect, and all tailored HST mission unique 
components must be in place with very tight schedule constraints. If 
any of the many elements do not develop as planned, the telescope may 
cease operations before a successful mission could be mounted.
Hubble Space Telescope's Scientific Legacy
    Not since Galileo turned his telescope towards the heavens in 1610 
has any event so changed our understanding of the universe as the 
deployment of the Hubble Space Telescope. From its orbit above Earth's 
atmosphere, the HST is free from the atmospheric turbulence that all 
ground-based telescopes must contend. Thus, HST has been able to return 
images of astounding clarity and sensitivity. HST imaging and 
spectroscopy have resulted in remarkable scientific achievement, 
including the determination of the changing rate of expansion of the 
universe and detailed studies of forming galaxies, black holes, galaxy 
hosts of gamma-ray bursts and quasars, active galactic nuclei, 
protostars, planetary atmospheres, and the interstellar and 
intergalactic medium. Scientific results have significantly surpassed 
original expectations. By 2005, the HST will have fulfilled every one 
of its scientific objectives and top-lever technical requirements. 
Moreover, the Hubble will continue to collect observations for several 
more years. Even after the HST is no longer in service, the rich 
archive of HST data (already more than 100,000 observations of 20,000 
unique targets) will continue to provide new discoveries for the years 
to come, with full support by NASA for both archive operations and 
research grants.
Future Plans for Hubble Space Telescope and Astronomy
    Astronomy is a critical part of the NASA's exploration initiative. 
NASA is aggressively investigating innovative ways to extend the 
science lifetime of the HST for as long as possible, including a 
possible robotic servicing option. We are receiving several responses 
to our recently released Request For Information (RFI) on HST End of 
Mission Alternatives soliciting concepts for robotically-provided 
battery power extension. Indeed, this option appears to have greater 
likelihood of success than the possibility of accomplishing all the 
recommendations of the Board in time for a success Hubble servicing 
mission.
    HST is not NASA's only portal to the stars. It is one of many 
telescopes used by astronomers to study the .universe using various 
apertures and wavelength bands. Hubble, primarily used for observations 
of visible light, is one of the four orbital ``Great Observatories'' 
designed for use across the spectrum. The other three include the 
Compton Gamma-Ray Observatory (1991-2000), the Chandra X-Ray 
Observatory, and the infrared Spitzer Space Telescope. In the years 
since Hubble was launched with its 2.4-meter aperture, many new ground-
based telescopes have been built with larger apertures that enable 
observations with increasingly higher angular resolution, though 
subject to the blurring effects of Earth's atmosphere.
    The James Webb Space Telescope (JWST) program has been strengthened 
to assure a 2011 launch date. Once on orbit, this advanced technology 
infrared telescope will provide insight into the a region of the 
spectrum where we will be able, like never before, to view the 
formation of the earliest galaxies. The JWST will build on the 
successful science of the Hubble via the most advanced instrumentation 
and a larger 6.5 meter aperture.
    The following table lists larger optical telescopes now or soon to 
be available. along with Hubble and also several examples of large 
telescopes available or in development for observations at other 
wavelengths.

   Examples of Large Telescope Facilities Available or In Development
------------------------------------------------------------------------
                          Optical +IR
  Radio/MM    Infrared     (aperture,    Ultraviolet    X-Ray     Gamma
                            meters)                                Ray
------------------------------------------------------------------------
VLA          Spitzer     SALT (11.0)    HST           Chandra   GLAST
GBI          SOFIA       Keck I, II     GALEX         XTE       SWIFT
                          (10.0)
ALMA         JWST        Hobby-Eberly                 XMM-
                          (9.2)                        Newton
Arecibo      HST         LBT (8.4 x 2)                Astro-E2
FCRAO                    Subaru (8.3)                 SWIFT
VLBA                     VLT (8.2 x 3)
CSO                      Gemini (N &
                          S) (8.1)
                         HST (2.4)
------------------------------------------------------------------------

    The HST program has provided a significant amount of funding 
support for U.S. astronomers; in fact, it is currently providing 
approximately 20 percent of all direct grant support. After HST 
observations have ceased, NASA plans to continue to support ongoing 
grants and to offer new grant support for HST archival research until a 
similar grant program is in place for the upcoming James Webb Space 
Telescope program.
    This will ensure stability to the research community and full use 
of the rich HST data archive throughout this period of transition.
Conclusion
    The cancellation of HST-SM4 was a difficult decision. HST is 
producing world-class science. However, NASA cannot justify the 
additional risk that such a unique mission would entail, based on what 
must be done to assure greatest protection to the crew. It is 
increasingly apparent that our choice is to either fully comply with 
the Columbia Accident Investigation Board report or conduct the 
servicing mission, but not both. We must be responsible on all future 
flights and be fully compliant. NASA will continue to aggressively 
pursue options to extend the science lifetime of the Hubble by means 
other than Shuttle servicing. NASA will continue to be a major 
supporter of astronomy in the future as the Agency continues to explore 
the universe.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                  
                                  
                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
